App. 1
United States Court of Appeals
for the Fifth Circuit
-----------------------------------------------

No. 20-30233
-----------------------------------------------

ALLIANCE FOR GOOD GOVERNMENT,
Plaintiff–Appellee,
versus
COALITION FOR BETTER GOVERNMENT,
Defendant–Appellant,
DARLEEN JACOBS,
Objecting Party–Appellant.
------------------------------------------------------------------------------------------------------------------------------------------------------------

Appeal from the United States District Court
for the Eastern District of Louisiana
USDC No. 2:17-CV-3679
------------------------------------------------------------------------------------------------------------------------------------------------------------

Before HIGGINBOTHAM, SMITH, and DENNIS, Circuit
Judges.
JUDGMENT
(Filed May 19, 2021)
This cause was considered on the record on appeal
and the briefs on file.

App. 2
IT IS ORDERED and ADJUDGED that the judgment of the District Court is AFFIRMED.
IT IS FURTHER ORDERED that each party bear
its own costs on appeal.

App. 3
United States Court of Appeals
for the Fifth Circuit
-----------------------------------------------

No. 20-30233
-----------------------------------------------

ALLIANCE FOR GOOD GOVERNMENT,
Plaintiff–Appellee,
versus
COALITION FOR BETTER GOVERNMENT,
Defendant–Appellant,
DARLEEN JACOBS,
Objecting Party–Appellant.
------------------------------------------------------------------------------------------------------------------------------------------------------------

Appeal from the United States District Court
for the Eastern District of Louisiana
USDC No. 2:17-CV-3679
------------------------------------------------------------------------------------------------------------------------------------------------------------

(Filed May 19, 2021)
Before HIGGINBOTHAM, SMITH, and DENNIS, Circuit
Judges.
PATRICK E. HIGGINBOTHAM, Circuit Judge:
Coalition for Better Government and Darleen Jacobs challenge the reasonableness of the district court’s
award of attorney’s fees to Alliance for Good Government for federal trademark infringement under the

App. 4
Lanham Act. Jacobs also argues that she was improperly joined post-judgment. We affirm.
I.
Our two prior opinions detail the relevant background.1 Briefly, Alliance and Coalition are nonprofit
organizations that endorse political candidates in New
Orleans. In 2017, Alliance sued Coalition, seeking to
enjoin use of its trade name (word mark) and logo
(composite mark) for federal trademark infringement
under the Lanham Act, state trademark infringement,
and unfair trade practices. The district court granted
Alliance summary judgment on its federal trademark
infringement claim, enjoining Coalition from using
both its word and composite marks. Alliance voluntarily dismissed its other claims.
Coalition appealed, and we affirmed the district
court’s summary judgment but modified its injunction
to restrain only Coalition’s use of its composite mark.2
While the first appeal was pending, Alliance moved
for attorney’s fees pursuant to the Lanham Act’s feeshifting provision,3 and the district court awarded

1

All. for Good Gov’t v. Coal, for Better Gov’t (Alliance I ), 901
F.3d 498 (5th Cir. 2018); All. for Good Gov’t v. Coal. for Better
Gov’t (Alliance II ), 919 F.3d 291 (5th Cir. 2019).
2
Alliance I, 901 F.3d at 514.
3
The Lanham Act authorizes the award of “reasonable attorney fees to the prevailing party” in “exceptional cases.” 15 U.S.C.
§ 1117(a).

App. 5
Alliance $68,237.25 in fees.4 Coalition also appealed
the fee award. In our second opinion, we concluded that
the district court did not abuse its discretion in classifying this case as an exceptional one, warranting reasonable attorney’s fees under the Lanham Act.5 As
Alliance had not prevailed on its word mark claim, it
was not entitled to attorney’s fees for work related to
that claim, or for the claims it voluntarily dismissed.6
We remanded, instructing the district court to adjust
the fee award to account for claims on which Alliance
did not prevail, as best it could in light of our opinion.7
We made no reference to and did not prohibit awarding
additional fees related to the additional litigation of
the fee award.
On remand, the district court instructed Alliance
to file a new motion for attorney’s fees, separating fees
4

Alliance II, 919 F.3d at 294. This amount included “fees already incurred and projected fees from replying to Coalition’s opposition to the fees motion.” Id.
5
Alliance II, 919 F.3d at 295. The Appellants attempt to relitigate the issue of whether this case is exceptional in their reply
brief. Our prior determination that the district court did not
abuse its discretion in finding this case exceptional is law of the
case and cannot be challenged in this appeal. Tollett v. City of Kemah, 285 F.3d 357, 363 (5th Cir. 2002), cert. denied, 537 U.S. 883
(2002) (“Under the law of the case doctrine, an issue of law or fact
decided on appeal may not be reexamined either by the district
court on remand or by the appellate court on a subsequent appeal.” (citing United States v. Becerra, 155 F.3d 740, 752 (5th Cir.
1998))). Because we will not reconsider the exceptional nature of
this case, it is unnecessary to strike this portion of the Appellants’
reply brief as Alliance requests in its motion to strike.
6
Alliance II, 919 F.3d at 298.
7
Id.

App. 6
in accordance with our judgment and including any demand for fees related to the appeals “not inconsistent
with [our] judgment,” which had affirmed the exceptional nature of the case. Alliance argued that its work
on the word mark claim was “inextricably intertwined
with work” on the composite mark claim, so it was unable to fully disentangle fees related to each claim. Instead, it proposed a 10% across-the-board reduction of
fees to estimate for time spent on the word mark claim,
and a $1,500 reduction to account for the claims it voluntarily dismissed. Alliance also moved to join Darleen
Jacobs, a principal of Coalition, because it had learned
during post-judgment discovery that Coalition lacked
resources to pay the fee award.
The district court joined Jacobs as a third party to
the case, required that Alliance serve her with the
court’s order, and gave Jacobs two weeks to respond to
Alliance’s motion. Jacobs opposed Alliance’s motion for
fees, but the district court ultimately found it appropriate to hold her directly liable. The district court
agreed with Alliance’s efforts to modify the fee award
in accordance with our second opinion, rejected Coalition’s objections, and awarded Alliance $148,006.15 in
fees.
Both Jacobs and Coalition appealed. Jacobs argues that the district court’s order joining her was improper. And both challenge the reasonableness of the
district court’s fee award.

App. 7
II.
A.
As the Supreme Court explained in Nelson v. Adams USA, Inc., a court adding a party post-judgment
must afford that party due process.8 Such process, as
reflected in Federal Rules of Civil Procedure 12 and
15, requires an added party have an opportunity to
respond to the claims against him.9 We review the district court’s decision to join a party for abuse of discretion.10
The facts here mirror those in Nelson, with key
exceptions. In both cases, the prevailing party was
awarded attorney’s fees and subsequently sought to
join an individual in a leadership role within the opposing party entity out of fears the party itself did not
have sufficient assets to pay the fee award.11 However,
in Nelson, the district court immediately granted the
prevailing party’s motion, making Nelson a party and
subjecting him to the fee award.12 The Supreme Court
held that the district court violated due process because it failed to give Nelson “an opportunity to respond and contest his personal liability for the award
8

Nelson v. Adams USA, Inc., 529 U.S. 460, 463 (2000).
Id. at 468; see also Mullane v. Cent. Hanover Bank & Trust
Co., 339 U.S. 306, 314 (1950) (“The fundamental requisite of due
process of law is the opportunity to be heard.” (citation omitted)).
10
Acevedo v. Allsup’s Convenience Stores, Inc., 600 F.3d 516,
520 (5th Cir. 2010) (per curiam).
11
Nelson, 529 U.S. at 462–63.
12
Id. at 463.
9

App. 8
after he was made a party and before the entry of judgment against him.”13 The district court here gave Jacobs two weeks to respond to Alliance’s motion for
attorney’s fees after joining her, and she did so. It was
only after considering Jacobs’s arguments in opposition that the district court found her liable for the fee
award. This procedure met the demands of due process.14
B.
Jacobs next argues that she is not liable as an individual under the Lanham Act.
The Lanham Act authorizes the award of “reasonable attorney fees to the prevailing party” in “exceptional cases.”15 The text of the provision does not
expressly limit the persons who can be held liable for
attorney’s fees. In interpreting the Patent Act’s identically worded fee-shifting provision, the Supreme Court
explained that the “text is patently clear. It imposes
one and only one constraint on district courts’ discretion to award attorney’s fees in patent litigation,”
which is determining whether the case is exceptional.16
13

Id.
Jacobs also argues that Nelson requires that the district
court join her by means of an amended pleading instead of a motion. However, as the district court correctly noted, it has the authority to join a party “[co]n motion or on its own” at any time.
FED. R. CIV. P. 21.
15
15 U.S.C. § 1117(a).
16
Octane Fitness, LLC v. ICON Health & Fitness, Inc., 572
U.S. 545, 553 (2014). We have found case law interpreting the
14

App. 9
The Court gave no indication that the provision limited
who could be held liable. Indeed, in Nelson, which also
concerned attorney’s fees under the Patent Act, the
Court underscored that its decision to invalidate the
manner of Nelson’s joinder did “not insulate Nelson
from liability.”17
The Federal Circuit in turn has affirmed imposition of fee awards under the Patent Act against individuals who were not party to the underlying litigation
when their conduct contributed to the court’s decision to award attorney’s fees.18 The decision to do so
stems from the fee-shifting provision’s purpose of preventing “gross injustice when a party has litigated

Patent Act’s fee-shifting provision instructive in interpreting the
Lanham Act’s identical provision. See, e.g., Alliance II, 919 F.3d
at 295; Baker v. DeShong, 821 F.3d 620, 623 (5th Cir. 2016) (citing
S. REP. No. 93-1400 (1974)); CJC Holdings, Inc. v. Wright & Lato,
Inc., 979 F.2d 60, 65 (5th Cir. 1992) (“Given the parallel language,
we infer that Congress meant courts to apply similar standards
in both patent and trade dress cases.”).
17
Nelson, 529 U.S. at 472.
18
See, e.g., Insituform Tech., Inc. v. CAT Contracting, Inc.,
385 F.3d 1360, 1373 (Fed. Cir. 2004); Mach. Corp. of Am. v. Gullfiber AB, 774 F.2d 467, 475 (Fed. Cir. 1985) (“This court has held
that an individual may be assessed fees under [the fee-shifting
provision of the Patent Act] if his conduct supports a finding that
the case is exceptional.” (citing Hughes v. Novi Am., Inc., 724 F.2d
122, 126 (Fed. Cir. 1984))); see also Iris Connex, LLC v. Dell, Inc.,
235 F. Supp. 3d 826, 843 (E.D. Tex. 2017) (holding a non-party
liable for attorney’s fees under the Patent Act where the nonparty was afforded due process, was responsible for the conduct
making the case exceptional, and where it was equitable to do so).

App. 10
vexatiously”19 and the general principle that “[a]n officer is individually liable for any tortious conduct that
he committed in connection with his corporate duties.”20 Given the similar underlying purpose of the
Lanham Act’s fee-shifting provision,21 we find it reasonable to likewise impose liability for a Lanham Act
fee award on a properly-added party responsible for
the conduct making a case exceptional.
We affirmed the district court’s determination that
this case is exceptional because Coalition litigated in
an unreasonable manner, including presenting meritless defenses at the summary judgment stage, filing an
unsupported lathes defense, meritless counterclaim,
and a meritless motion to dismiss, and behaving unreasonably during discovery by insisting on proceeding
with depositions even after the district court granted
summary judgment on Alliance’s federal trademark infringement claim and Alliance dismissed its other
claims.22 While Jacobs argues she was not responsible
for this conduct, she is a principal of Coalition and personally signed the motion for summary judgment, the
counterclaim, the motion to dismiss, and Coalition’s
19

Sun-Tek Indus., Inc. v. Kennedy Sky Lites, Inc., 929 F.2d
676, 679 (Fed. Cir. 1991) (internal quotation marks and citation
omitted).
20
Insituform, 385 F.3d at 1373 (citing Walker v. FDIC, 970
F.2d 114, 122 (5th Cir. 1992)).
21
See Baker, 821 F.3d at 623 n. 1 (explaining that the legislative history indicates that the purpose of the fee-shifting provision in the Lanham Act is similar to the purpose underlying the
fee-shifting provision in the Patent Act).
22
Alliance II, 919 F.3d at 296.

App. 11
memorandum insisting on proceeding with depositions
after the district court’s summary judgment ruling.23
We find no abuse of discretion in the district court’s decision to join Jacobs and hold her directly liable for the
fee award.24
III.
Both Appellants argue that the fee award is unreasonable. We review the reasonableness of a fee
award under the Lanham Act for abuse of discretion.25
The Appellants raise three challenges to the fee
award. They first argue the district court had no authority to award any fees related to the two appeals
because only our Court has that authority. The Federal
Circuit has interpreted the Patent Act’s fee-shifting
provision as allowing district courts to “award[ ] fees
for the entire case, including any subsequent appeals”
23

See, e.g., Nelson, 529 U.S. at 472 (stating that Nelson, president and sole shareholder of a party, was not insulated from liability for an attorney’s fee award); Insituform Tech., 385 F.3d at
1372–73 (holding main executive officer who “was directly and actively involved in all aspects of the litigation” and “individually
responsible for all of the conduct that led the district court to increase damages and award attorney’s fees” individually liable for
Patent Act fee award).
24
Alliance moved to strike the section of the Appellants’ reply brief arguing that Jacobs was not solely responsible for Coalition’s litigation conduct because that argument was waived. Since
we reject Jacobs ‘s argument, there is no need to strike it from the
reply brief. Having rejected the other portions of Alliance’s motion
to strike above, we deny its motion in full.
25
Alliance II, 919 F.3d at 295.

App. 12
because neither the text “nor its legislative history distinguishes between awarding attorney fees in the district court and in the appellate court.”26 We again find
it appropriate to extend the interpretation of the Patent Act fee-shifting provision to our interpretation of
the Lanham Act and find that district courts do have
the authority to award appellate fees under the Lanham Act.
The district court’s decision to award fees for further litigation of the attorney’s fee award did not contravene the mandate rule. On remand, a lower court
“must implement both the letter and spirit of [our]
mandate, and may not disregard [our] explicit directives.”27 The mandate must be “construed in the light
of [our] opinion.”28 In Alliance II, we “remand[ed] for
the district court to assess the amount of the award of
fees in light of this opinion.”29 Notably, our opinion itself made two conclusions: first, we affirmed the exceptional nature of the case allowing Alliance attorney’s
fees, and second, we instructed the district court to adjust the award to exclude fees related to Alliance’s
work on the word mark claim and claims it voluntarily

26

Therasense, Inc. v. Becton, Dickinson and Co., 745 F.3d
513, 517 (Fed. Cir. 2014) (quoting Rohm & Haas Co. v. Crystal
Chem. Co., 736 F.2d 688, 692 (Fed. Cir. 1984)); see also PPG Indus. Inc. v. Celanese Polymer Specialities Co., 840 F.2d 1565, 1569
(Fed. Cir. 1998) (“[T]he power to award attorney fees for appellate
work is not the exclusive domain of an appellate court.”).
27
Tollett, 285 F.3d at 364 (emphasis omitted) (cleaned up).
28
Id. (emphasis omitted) (cleaned up).
29
Alliance II, 919 F.3d at 298.

App. 13
dismissed.30 But we did not address whether Alliance
was entitled to further attorney’s fees for continued litigation of the fee award either expressly or implicitly.
As such, when the district court allowed Alliance fees
for continued fee-award litigation, it did not contradict
either the letter or the spirit of Alliance II.31
Second, the Appellants argue Alliance failed to
properly document its fees because its time sheets do
not differentiate between work done on the composite
mark claim as opposed to other claims. This argument
ignores the efforts of the district court to adjust the fee
award for claims on which Alliance did not prevail. The
court found that the word and composite mark claims
were “intertwined” and difficult to separate because
the parties had not distinguished between the word
and composite mark claims prior to the first appeal. It
30

Id.
The Appellants argue that the district court is an improper
forum for considering appellate fees. They do not argue, and so
we do not address here, whether appellate fees may be recovered
under the Lanham Act only when an appeal itself is exceptional
as several other circuits have held. See, e.g., Tamko Roofing Prods.,
Inc. v. Ideal Roofing Co., Ltd., 294 F.3d 227, 230 (1st Cir. 2002)
(applying a three-factor analysis to determine whether an appeal
is exceptional); Urban Outfitters, Inc. v. BCBG Max Azria Grp.,
Inc., 430 F. App’x 131, 134 (3d Cir. 2011) (unpublished) (applying
the First Circuit’s three-factor analysis); U-Haul Int’l, Inc. v. Jartran, Inc., 793 F.2d 1034, 1044 (9th Cir. 1986) (declining to award
appellate fees because the appeal was not exceptional); see also
Therasense, 745 F.3d at 518 (declining to award appellate fees under the Patent Act because appeal was not exceptional); Rohm &
Haas, 736 F.2d at 692 (allowing award of appellate fees under the
Patent Act where “the appeal itself is exceptional”). We leave this
question open for another day.
31

App. 14
applied a 10% across-the-board reduction to estimate
for work related to the word mark claim and further
reduced the award by $1,500 for the claims voluntarily
dismissed.32 The Appellants make no argument for
why these reductions are an abuse of discretion. Even
if they are correct that Alliance’s billing entries are
flawed, the proper remedy is “a reduction of the award
by a percentage intended to substitute for the exercise
of billing judgment,” which the district court did.33
Finally, the Appellants argue the district court did
not consider their objections to Alliance’s fees motion.
We disagree. The district court considered each of these
objections and provided reasons for rejecting them.
The Appellants make no argument that the district
court’s rulings on any of these objections were improper, and we find no abuse of discretion.
IV.
The Appellants append a First Amendment argument similar to one raised in the prior two appeals, arguing that the imposition of an attorney fee award
would violate their free speech. This argument rests on
32

Indeed we acknowledged in our previous opinion the possibility that Alliance’s work on the composite mark claim may be
intertwined with its other claims, noting that the district court
had a “duty to make some attempt to adjust the fee award in an
effort to reflect an apportionment” even if it was not possible to
make an exact apportionment. Alliance II, 919 F.3d at 298 (quoting Gracie v. Grade, 217 F.3d 1060, 1070 (9th Cir. 2000)).
33
Saizan v. Delta Concrete Prods. Co, Inc., 448 F.3d 795, 799
(5th Cir. 2006) (citation omitted).

App. 15
the premise that trademark restrictions should not
apply to Coalition because it is engaged in political
speech, a challenge to the injunction itself. Coalition
first raised this argument during its original appeal of
the district court’s grant of summary judgment. The
Alliance I panel declined to examine the First Amendment issue then because it had not been preserved or
ruled on below, relying on the doctrine that “an appellate court, in reviewing a summary judgment order,
can only consider those matters presented to the district court.”34
The dissent argues that this decision was clearly
erroneous and so our panel is not bound by law of the
case. We disagree. The clearly-erroneous exception for
law-of-the-case doctrine applies only in “extraordinary
circumstances.”35 “Mere doubts or disagreement about
the wisdom of a prior decision of this or a lower court
will not suffice for this exception. To be ‘clearly erroneous,’ a decision must strike us as more than just maybe
or probably wrong; it must be dead wrong.”36 While the
Alliance I panel had the discretion to address a waived
argument,37 its decision not to do so was not “dead
wrong.” Moreover, even if Coalition’s speech is rightly
considered noncommercial speech, this Court has not
34

Alliance I, 901 F.3d at 506 (citing Frank C. Bailey Enters.,
Inc. v. Cargill, Inc., 582 F.2d 333, 334 (5th Cir. 1978)).
35
City of Pub. Serv. Bd. v. Gen. Elec. Co., 935 F.2d 78, 82 (5th
Cir. 1991).
36
Id. (cleaned up).
37
See United States v. Martinez, 263 F.3d 436, 438 (5th Cir.
2001).

App. 16
previously held that § 32(1) of the Lanham Act, the section at issue here, applies only to commercial speech.38
Because Alliance I was not “dead wrong” to decline to
address Coalition’s First Amendment argument, we
are bound by law of the case. The argument is therefore
not properly before us, and we do not address it.
V.
We affirm.

JAMES L. DENNIS, Circuit Judge, dissenting:
The majority strains at gnats but swallows a
camel.
This is the third appeal in this case. I regret that
I was not assigned to participate in the first appeal. See
All. for Good Gov’t v. Coal. for Better Gov’t (Alliance I),
901 F.3d 498, 506 (5th Cir. 2018). If I had taken part, I
would have worked to persuade the court that applying
38

This Court has held that § 43(a) contains a commercial-use
requirement, see Seven-Up v. Coca-Cola Co., 86 F.3d 1379, 1383
& n.6 (5th Cir. 1996), but it has not extended that requirement to
§ 32(1). Additionally, under similar circumstances, the Second
Circuit has held, that § 32(1) applies to “[a] political organization
that adopts a platform and endorses candidates under a trade
name.” United We Stand Am., Inc. v. United We Stand Am. N.Y.,
Inc., 128 F.3d 86, 90 (2d Cir. 1997). Thus, this is not a case where
our sister circuits have made uniform holdings that Coalition’s
speech falls outside the reach of § 32(1). See United States v.
Garza, 706 F.3d 655, 662–63 (5th Cir. 2013) (finding “clear or obvious” error where case law from sister circuits was “uniform[ ]”).

App. 17
the Lanham Act to the noncommercial political speech
of Coalition for Better Government is contrary to the
Act and violates the First Amendment. And had the Alliance I panel correctly held that Coalition’s pure political speech cannot be enjoined under the Lanham Act,
this litigation would have terminated, averting two additional and flawed decisions that followed Alliance I.
See All. for Good Gov’t v. Coal. for Better Gov’t (Alliance
II), 919 F.3d 291 (5th Cir. 2019); All. for Good Gov’t v:
Coal. for Better Gov’t, No. CV 17-3679, 2020 WL
1503533, at *1 (E.D. La. Mar. 30, 2020).
It is not too late to correct Alliance I’s serious
statutory and constitutional error, however; under our
precedents “the law of the case” is not an inexorable
command. We need not adhere to a former decision if
it was clearly erroneous and doing so would work a
manifest injustice. E.g., Schwartz v. NMS Indus., Inc.,
575 F.2d 553, 554–55 (5th Cir. 1978); United States v.
Vahlco Corp., 895 F.2d 1070, 1072–73 (5th Cir. 1990).
In my view, that exception to the rule applies here. Alliance I and Alliance II were predicated on a patent error, i.e., that the Lanham Act can be constitutionally
applied to the noncommercial political speech of a political organization, such as the political endorsements
made by Coalition in this case.1 And misapplying the
1

See Seven-Up v. Coca-Cola Co., 86 F.3d 1379, 1383 & n.6
(5th Cir. 1996) (holding that § 43(a) of the Lanham Act applies
only to activities that are “ ‘commercial’ in nature”); Procter &
Gamble Co. v. Amway Corp., 242 F.3d 539, 547 & n.13 (5th Cir.
2001) (same), abrogated on other grounds by Lexmark Intern., Inc.
v. Static Control Components, Inc., 572 U.S. 118 (2014); Farah v.
Esquire Magazine, 736 F.3d 528, 541 (D.C. Cir. 2013) (holding

App. 18
Lanham Act to noncommercial political speech creates
an anomalous precedent that will beget grave injustice—the imposition of liability for, and consequent
chilling of, the exercise of constitutionally-protected
free speech. What is more, the previous decisions in Alliance I & II set dangerous Precedents inviting federal
courts to improperly involve themselves in state and
local political disputes.
Alliance for Good Government (Alliance) and Coalition for Better Government (Coalition) are New
Orleans-based nonprofit corporations whose principal
activity is the vetting and endorsement of political candidates vying for local and state offices. Their missions
and work can only be described as political. Neither
that the Lanham Act applies only to commercial speech); Utah
Lighthouse Ministry, 527 F.3d 1045, 1052–54 (10th Cir. 2008)
(same); Bosley Med. Inst., Inc. v. Kremer, 403 F.3d 672, 676–77
(9th Cir. 2005) (same); Taubman Co. v. Webfeats, 319 F.3d 770,
774 (6th Cir. 2003) (same); Porous Media Corp. v. Pall Corp., 173
F.3d 1109, 1120 (8th Cir. 1999) (same); cf. S.F. Arts & Athletics,
Inc. v. U.S. Olympic Comm., 483 U.S. 552, 566 (1987) (Brennan,
J., dissenting) (explaining that a “key” requirement of the Lanham Act is the rule that a trademark violation occurs only when
an offending trademark is applied to commercial goods and services”); Radiance Found., Inc. v. N.A.A.C.P., 786 F.3d 316, 322
(4th Cir. 2015) (“Although this case does not require us to hold
that the [First Amendment’s] commercial speech doctrine is in all
respects synonymous with the” Lanham Act’s requirement that
an infringer’s use of a mark be “ ‘in connection with’ ” goods or
services, “we think that doctrine provides much the best guidance
in applying the Act. The ‘in connection with’ element [in § 32(1) of
the Act] reads very much like a description of different types of
commercial actions: ‘in connection with the sale, offering for sale,
distribution, or advertising of any goods or services.” (quoting 15
U.S.C. § 1114(1)(a)).

App. 19
organization offers or advertises commercial goods or
services. And the speech in which they engage—purely
political speech—is at the core of the First Amendment’s protections. See Arizona Free Enter. Club’s Freedom Club PAC v. Bennett, 564 U.S. 721, 734 (2011)
(“[T]he First Amendment has its fullest and most urgent application to speech uttered during a campaign
for political office.” (internal quotation marks omitted)).
Conversely, the Lanham Act, 15 U.S.C. § 1051, et
seq. (“the Act”)—the statute that Alliance alleges Coalition violated—exclusively regulates commercial activity and commercial speech.2 Because Coalition does
not engage in commercial activity or commercial
speech, its conduct is beyond the reach of the Lanham
Act, and holding it liable under the statute for its political speech violates the First Amendment’s protections for free speech. See Seven-Up v. Coca-Cola Co., 86
F.3d 1379, 1383 n.6 (5th Cir. 1996); Procter & Gamble
2

In addition to bringing a Lanham Act claim, Alliance’s complaint alleged a claim under the Louisiana Unfair Trade Practices
Act, LA. REV. STAT. § 51:1401 et seq. However, Alliance voluntarily
dismissed that state-law cause of action in its motion for summary judgment, leaving only its claim under the Lanham Act. See
All. for Good Gov’t v. Coal. for Better Gov’t, No. 17-3679, 2017 WL
6442156, at *1 (Oct. 23, 2017 E.D. La.). Thus, although there is a
body of common law extending trademark protection to various
entities, ‘including nonprofits, see 6 FLETCHER CYCLOPEDIA OF THE
LAW OF CORPORATIONS § 2436 (Sept. 2020), the only cause of action
at issue here is a claim under the Lanham Act, a federal statute,
which, as discussed below, carries a specific requirement that the
alleged infringer use the mark “in connection with the sale, offering for sale, distribution, or advertising of any goods or service,”
i.e., that the mark be used in commerce. 15 U.S.C. § 1114(a).

App. 20
Co. v. Amway Corp., 242 F.3d 539, 547 & n.13 (5th Cir.
2001) (same), abrogated on other grounds by Lexmark
Intern., Inc. v. Static Control Components, Inc., 572 U.S.
118 (2014); Farah v. Esquire Magazine, 736 F.3d 528,
541 (D.C. din 2013); Utah Lighthouse Ministry, 527
F.3d 1045, 1052–54 (10th Cir. 2008); Bosley Med. Inst.,
Inc. v. Kremer, 403 F.3d 672, 676–77 (9th Cir. 2005);
Taubman Co. v. Webfeats, 319 F.3d 770, 774 (6th Cir.
2003); Porous Media Corp. v. Pall Corp., 173 F.3d 1109,
1120 (8th Cir. 1999); see also Radiance Found., Inc. v.
NA.A.C.P., 786 F.3d 316, 321 (4th Cir. 2015) (observing
that Congress “did not intend for trademark laws to
impinge the First Amendment rights of critics and
commentators”).
Nevertheless, in the first appeal in this case, see
Alliance I, 901 F.3d at 506, this court committed serious error by holding Coalition’s speech subject to injunction under the Lanham Act, and thus infringing on
Coalition’s First Amendment freedom of political expression.
Although a prior panel’s rulings in a case typically
bind a subsequent panel under the law-of-the-case doctrine, our decision in Alliance I, as noted above, was
manifestly erroneous, and adhering to it now works a
clear injustice. Thus, this panel’s hands are not tied by
that decision. See Vahlco Carp., 895 F.2d at 1072–73
(applying this exception to the law-of-the-case doctrine
where (1) a ruling in a prior appeal in the same litigation was “clearly in error,” and (2) it “would be manifestly unjust” to follow that prior decision; accordingly,
the previous decision “does not establish the law of the

App. 21
case and is not binding on the Court in the present appeal”). This panel should thus correct’ this court’s error
in Alliance I by vacating each judgment based on that
error and remanding for a judgment of dismissal with
prejudice with respect to Alliance’s Lanham Act claim
against Coalition.3
Remedying the foundational flaw in Alliance I
would of course obviate the need to reach the subsequent mistakes by the district court that generated the
present appeal. But because the majority chooses not
to correct the foundational error of Alliance I, I must
also address the errors committed by the district court
in its decision following the remand of the case to it
after Alliance II. In Alliance II, a panel affirmed in part
the district court’s award of attorneys’ fees to Alliance.
Our mandate in Alliance II instructed the district
court only to adjust downward its $68,237.25 award of
3

Under this court’s Rules, we are empowered to recall our
mandates in Alliance I and Alliance II and reform them to direct
vacatur of the judgments appealed from in order “to prevent injustice.” 5TH CIR. R. 41.2; see also Natal Sur. Corp. v. Charles
Carter & Co., 621 F.2d 739, 741 (5th Cir. 1980) (explaining that
this court is empowered to “recall” or “reform” a previous mandate
“to prevent injustice”). Because abiding by those prior decisions
would, as discussed, work a manifest injustice, a fortiori the
standard for recalling and reforming our mandates in Alliance I
and II is satisfied and, indeed, these measures are necessary to
avoid the highly unjust results of those rulings. See In re Incident
Aboard the D.B. Ocean King on Aug. 30, 1980, 877 F.2d 322, 323
(5th Cir. 1989) (holding that “the equities of this case dictate the
exercise of our power under Rule 41.2 to recall and reform the
mandate,” when “not once, but twice this Court has itself brought
about” a “potential injustice” that could only be averted by recalling the court’s mandate).

App. 22
attorneys’ fee to Alliance on remand. Instead, the district court awarded additional fees for time Alliance
spent litigating the two appeals and its motion for attorneys’ fees, resulting in a total award to Alliance of
$148,006.15. The court then sua sponte joined Coalition’s attorney, Darleen Jacobs, as a party to the case
and, purporting to act pursuant to the Lanham Act’s
fee-shifting provision, 15 U.S.C. § 1117(a), held her personally liable for the full $148,006.15 fee award. In so
doing, the district court plainly violated the mandate
rule, the fundamental requirement that on remand a
district court can do one thing and one thing only—
scrupulously implement this court’s mandate. See, e.g.,
United States v. Matthews, 312 F.3d 652, 657 (5th Cir.
2002); Tollett v. City of Kemah, 285 F.3d 357, 364 (5th
Cir. 2002).
What is more, § 1117(a) of the Act nowhere states
or implies that a litigant’s counsel can be held liable
for an award of attorneys’ fees, and it thus does not authorize the district court’s imposition of personal liability on Coalition’s counsel. See Healey v. Chelsea Res.,
Ltd., 947 F.2d 611, 624 (2d Cir. 1991) (“When a feeshifting statute that authorizes the courts to award attorneys’ f-es to prevailing parties does not mention an
award against the losing party’s attorney, the appropriate inference is that an award against attorneys is
not authorized”); see also Baker v. DeShong, 821 F.3d
620, 623–24 (5th Cir. 2016) (Characterizing the feeshifting provisions in the Lanham Act and Patent
Act as “statutory equivalents” and determining that
“Congress intended” the provisions “to have the same

App. 23
meaning” given their “parallel purpose, structure, and
language”); cf. Phonometrics, Inc. v. ITT Sheraton
Corp., 64 F. App’x 219, 222 (Fed. Cir. 2003) (vacating
imposition of liability for attorneys’ fees on losing
party’s counsel under the Patent Act’s identicallyworded fee-shifting provision because counsel cannot
be “liable for fees awarded under § 285 [of the Act]; it
can only be liable for excess fees awarded under [28
U.S.C.] § 1927”); cf. also Tech. Props. Ltd. LLC v. Canon
Inc., No. C 14-3640 CW, 2017 WL 2537286, at *5 (N.D.
Cal. Jan. 26, 2017) (holding that a litigant’s counsel
could not be held liable for an attorneys’ fees award
under § 285 of the Patent Act based on the “the text of
the statute”), aff ’d, 718 F. App’x 987 (Fed. Cir. 2018)
(mem.).
In sum, this court’s decision in Alliance I to hold
Coalition liable under the Lanham Act for noncommercial political speech was clearly erroneous and following it now will result in manifest injustice. Thus, this
panel is not bound by that errant determination and
should correct it by vacating judgments based thereon
and directing the district court to dismiss Alliance’s
Lanham Act claim with prejudice. See Schwartz, 575
F.2d at 554–55 (explaining “that ‘the law case doctrine’
is not an inexorable command” and need not be adhered to when a prior “decision was clearly erroneous
and would work a Manifest injustice”). Moreover, even
if this court continues to mistakenly adhere to Alliance
I, the district court committed multiple errors on remand from Alliance II that would necessitate reversal.
Because the majority fails to rectify this court’s error

App. 24
in Alliance I and because it ratifies the district court’s
errors on remand, I respectfully dissent.
I.
The overriding problem in this case is that the
Lanham Act plainly does not reach the noncommercial
political speech in which Coalition engages and holding otherwise curtails important First Amendment
free speech guarantees.4 Enacted in 1946, the Lanham
4

In Alliance I, the panel determined that Coalition did not
preserve below its arguments (1) that the Lanham Act does not
apply to noncommercial or political speech and (2) that its political speech was protected by the First Amendment, and held these
issues were therefore “waived,” refusing to consider Coalition’s
contentions. 901 F.3d at 506. This was error for at least three reasons. First, it is axiomatic that a party can only be liable for violating a statute if the statute actually applies to the party and its
acts (or omissions). And determining whether a particular statute
applies to a particular party necessarily requires courts to, interpret that statute. See, e.g., Marbury v. Madison, 5 U.S. (1 Cranch)
137, 178 (1803) (“Those who apply the rule to particular cases,
must of necessity expound and interpret that rule.”). Indeed, it is
the very task of courts “to construe what Congress has enacted.”
Rumsfeld v. F. for Acad. & Institutional Rts., Inc., 547 U.S. 47, 56
(2006) (quoting Duncan v. Walker, 533 U.S. 167, 172 (2001)). Logically, then, for the Alliance I panel to have concluded that it could
hold Coalition liable under the Lanham Act, the panel necessarily
must have determined that the statute’s scope covers Coalition’s
conduct; implicit in that determination is Alliance I’s (demonstrably wrong) conclusion that the Act extends to noncommercial political speech. Thus, regardless of the Alliance I panel’s claim that
Coalition waived its defense as to the interpretation of the Lanham Act, there was simply no way for the panel to hold Coalition
liable without it concluding that the Lanham Act may, in its view,
validly constrain noncommercial political speech. But as discussed below, the Act’s history, text, and the plethora of cases

App. 25

interpreting the Act make clear that it does not apply to noncommercial or political speech.
Second, and as explained in more detail infra, Alliance I’s application of the Lanham Act to Coalition’s noncommercial political
speech infringes on First Amendment free speech rights. Again,
the Alliance I panel necessarily had to interpret the Lanham Act
in order to impose liability under it on Coalition. But applying the
Lanham Act in this way directly conflicts with this court’s “obligat[ion] to construe the statute to avoid constitutional problems
if it is fairly possible to do so.” Boumediene v. Bush, 553 U.S. 723,
787 (2008) (cleaned up). A reading of the Act that limits its reach
to commercial speech and, moreover, precludes it from touching
purely political speech is not only “fairly possible” but is the only
plausible interpretation of the statute. Accordingly, the Alliance
I panel failed to uphold its duty to read the Act in a manner that
avoids raising constitutional doubts.
Third, even assuming Coalition did not preserve in the district court its defenses to an injunction under the Lanham Act, it
nevertheless pressed those arguments on appeal in Alliance I,
and the Alliance I panel therefore erred in failing to apply the
plain-error standard of review to Alliance’s unpreserved arguments. Decades ago, “our Court . . . adopted ‘the practice of reviewing unpreserved error in a civil case using the plain-error
standard’ of review.” Crawford v. Falcon Drilling Co., Inc., 131
F.3d 1120, 1123 (5th Cir. 1997); see also Sec. & Exch. Comm’n v.
Life Partners Holding, Inc., 854 F.3d 765, 783 (5th Cir. 2017) (“We
review unpreserved challenges in civil cases for plain error.”);
Douglass v. United Servs. Auto. Ass’n, 79 F.3d 1415, 1428–29 (5th
Cir. 1996) (en banc) (plain error applies to a party’s failure to
timely file written objections to a magistrate judge’s report and
recommendation), superseded by statute on other grounds, 28
U.S.C. § 636(b)(1). Under this standard, which is identical to
plain-error review in the criminal context, the court “must determine (1) if there was error, (2) if that error was plain, (3) if the
error affects substantial rights, and (4) whether allowing that error to stand seriously affects the fairness, integrity or public reputation of judicial proceedings.” Crawford, 141 F.3d at 1123–24
(adopting the four-prong plain-error test as articulated in United
States v. Olano, 507 U.S. 725, 732, (1993)).

App. 26

Considering the first prong of the test, it was error to extend
the Lanham Act to noncommercial political speech because doing
so, as detailed infra, violates the statute, which applies only to
commercial speech, and tramples on free speech rights. Second,
this legal error was plain. We have previously held that several
of the statute’s provisions—including a provision pertaining to
unregistered trademarks that is analogous to the provision protecting registered trademarks at issue here—apply only to commercial speech. See Seven-Up v. Coca-Cola Co., 86 F.3d at 1383 &
n.6; Procter & Gamble Co., 242 F.3d at 547 & n.13. And even if no
Fifth Circuit decision squarely holds that the particular provision
of the Lanham Act invoked here is limited to commercial speech,
the “absence of circuit precedent does not prevent the clearly
erroneous application of statutory law from being plain error.”
United States v. Brown, 316 F.3d 1151, 1158 (10th Cir. 2003)
(cleaned up) (quoting United States v. Evans, 155 F.3d 245, 252
(3d Cir. 1998)). The obviousness of the error in the district court’s
interpretation of the Lanham Act is evident from the Act’s text,
its legislative history, and the need to give the Act a construction
that does not conflict with the First Amendment. It is also underscored by the near uniform holdings of our sister circuits that the
Act does not reach noncommercial speech. Cf. United States v.
Garza, 706 F.3d 655; 662–63 (5th Cir. 2013) (error was clear or
obvious because, although “this court had not [yet] definitively
answered” the question presented, the caselaw on the issue
among all five of our sister circuits was “uniform[ ]”). Third, the
error affected Coalition’s substantial rights. To affect substantial
rights, the error generally must be “prejudicial; it must affect the
outcome of the proceedings.” Crawford, 131 F.3d at 1125 (quoting
United States v. Calverly, 37 F.3d 160, 164 (5th Cir. 1994) (en
banc), abrogated in part on other grounds by Johnson v. United
States, 520 U.S. 461 (1997)). Obviously, the mistake in applying
the Lanham Act to Coalition ‘s noncommercial political endorsements affected the outcome of the case—indeed, was dispositive
of the case—because Coalition would not have been liable for violating the Act had the statute been construed properly. Thus, the
error that confronted the Alliance I panel was plain and affected
Coalition’s substantial rights. The Alliance I panel therefore had
the discretion to notice and correct the error, and it should have
done so because holding Coalition liable for violating the Lanham

App. 27
Act “was designed to protect both consumers’ confidence in the quality and source of goods and services
and protect businesses’ goodwill in their products by
creating a federal right of action for trademark infringement.” Peaches Ent. Corp. v. Ent. Repertoire Assocs., Inc., 62 F.3d 690, 692 (5th Cir. 1995) (citing S.
REP. NO. 1333, 79th Cong., 2d Sess. at 1). The Act’s text,
its legislative history, and the imperative to give the
statute a constitutionally permissible construction all
lead to the inescapable conclusion that the Act does not
reach noncommercial political speech.
Start with the text. The Act defines “commerce” as
“all commerce” that Congress “may lawfully regulate[ ].” 15 U.S.C. § 1127. Its purpose, inter alia, is to
“secure to the owner of the mark the goodwill of his
business and to protect the ability of consumers to distinguish among competing producers.” Two Pesos, Inc.
v. Taco Cabana Inc., 505 U.S. 763, 774 (1992) (internal
quotation marks omitted).
Section 43(a) of the statute, which addresses false
and misleading descriptions of unregistered marks,
states in part that:
Any person who, on or in connection with any
good or services, . . . uses in commerce any
word, term, name, symbol, or false designation
Act by its political speech muzzles the political organization’s free
speech rights, chills the speech of other political entities, and inappropriately calls upon federal courts to referee state and local
political disputes, all of which “seriously affect[ ] the fairness” and
“public reputation of judicial proceedings.” Crawford, 131 F.3d at
1123 (quoting Olano, 507 U.S. at 732).

App. 28
of origin, . . . which . . . is likely to cause confusion—as to the origin . . . of [another person’s] goods, services, or commercial activities,
. . . shall be liable in a civil action by any person who believes that he or she is likely to be
damaged by such act.
15 U.S.C. § 1125(a). The provision is meant to protect
“against a myriad of deceptive commercial practices.”
Seven-Up Co., 86 F.3d at 1383 (emphasis added) (quoting Res. Dev. v. Statue of Liberty-Ellis Island Found.,
926 F.2d 134, 139 (2d. Cir. 1991)). Unsurprisingly, we
have “previously determined that § 43(a) . . . only applies to commercial speech.” TMI, Inc. v. Maxwell, 368
F.3d 433, 436 n.2 (5th Cir. 2004) (citing Procter & Gamble Co., 242 F.3d at 547). The provision’s legislative history supported our conclusion. See Seven-Up Co., 86
F.3d at 1383 n.6. (citing 134 Cong. Rec 31,851 (Oct. 19,
1988) (statement of Rep. Kastenmeier) (commenting
that the reach of Section 43(a) “specifically extends
only to false and misleading speech that is encompassed within the ‘commercial speech’ doctrine developed by the United States Supreme Court”)); see also
Procter & Gamble Co., 242 F.3d at 547 n.13 (same).
At issue in this case is § 32(1) of the Act, which
covers infringement of registered marks. 15 U.S.C.
§ 1114(1). Section 32(1) creates a cause of action When
trademark infringement occurs “in connection with the
sale, offering for sale, distribution, or advertising of
any goods or services” and is “likely to cause confusion,
or to cause mistake, or to deceive.” Id.

App. 29
Based on the similar language between §§ 43(a)
and 32(1), courts have concluded that claims under the
two provisions have the same elements, with the exception that § 32(1) applies solely to registered marks.
See Lamparello v. Falwell, 420 F.3d 309, 312–13 (4th
Cir. 2005); cf. Margreth Barrett, Finding Trademark
Use: The Historical Foundation for Limiting Infringement Liability to Uses “In the Manner of A Mark”, 43
WAKE FOREST L. REV. 893, 942–43 (2008) (“While the
statutory language of sections 32(1)(a) and 43(a) differs, the provisions are generally understood to impose
the same standard for infringement.”). “To prevail under either cause of action, the trademark holder must
prove:
(1) that it possesses a mark; (2) that the [opposing party] used the mark; (3) that the [opposing party’s] use of the mark occurred ‘in
commerce’; (4) that the [opposing party] used
the mark ‘in connection with the sale, offering
for sale, distribution, or advertising’ of goods
or services; and (5) that the [opposing party]
used the mark in a manner likely to confuse
consumers.”
Lamparello, 420 F.3d at 313 (alterations in original).
Significantly, both provisions require that actionable
infringement be “in connection with” goods or services
in a manner likely to cause confusion to consumers.
Compare 15 U.S.C. § 1125(a) (use of mark “in connection with any goods or services”), with id. § 1114(1)
(use of mark “in connection with the sale, offering
for sale, distribution, or advertising of any goods or

App. 30
services”). “This is commonly described as the commercial use requirement.” Utah Lighthouse Ministry, 527
F.3d at 1052.
In light of this requirement, the clear majority of
circuits to have considered whether the Act applies to
any noncommercial speech have determined that it
does not. See Bosley Med. Inst., Inc., 403 F.3d at 676–
77 (construing § 32(1)); Taubman Co., 319 F.3d at 774
(same); Farah, 736 F.3d at 541; Utah Lighthouse Ministry, 527 F.3d at 1052–54; Porous Media Corp.., 173
F.3d at 1120; cf. S.F. Arts & Athletics, Inc., 483 U.S. at
566 (Brennan, J., dissenting); Radiance Found., Inc.,
786 F.3d at 322.5
In the instant case, Coalition’s use of its emblem
certainly was not “in connection” with commercial activity. Coalition exists solely to engage in the endorsement of candidates for public office. As the district
court recognized, “[p]eople are not buying products here.”
Because these entities’ activities are not commercial in
5

In United We Stand, Inc. v. United We Stand, America New
York, Inc., the Second Circuit held that that noncommercial political activities may be “services” within the meaning of the Lanham Act but also stated that a “crucial” factor in permitting such
a conclusion is that the infringer “us[e] the Mark not as a commentary on its owner, but instead as a source identifier.” 128 F.3d
86, 89–92 (2d Cir. 1997). Not only is the Second Circuit the sole
outlier court in an otherwise uniform line of federal appellate
authority holding that the Lanham Act does not apply to noncommercial speech, but the Second Circuit is also incorrect that
purely political speech is a “service” under the Lanham Act.
“[S]uch a service is not being rendered in commerce[;] it is being
rendered as part of the political process.” Tax Cap Comm. v. Save
Our Everglades, Inc., 933 F. Supp. 1077, 1081 (S.D. Fla. 1996).

App. 31
nature, the Lanham Act simply does not apply to this
case.
Applying the Lanham Act in the manner the Alliance I panel did was also clearly inconsistent with
Congress’s intent in enacting the statute. Congress
specifically recognized the constitutional problems of
creating liability for free speech and sought to avoid
doing so. See Radiance Found., Inc., 786 F.3d at 321;
see also MasterCard Int’l Inc. v. Nader 2000 Primary
Comm., Inc., No. 00 CIV. 6068, 2004 WL 434404, at *7–
8 (S.D.N.Y. Mar. 8, 2004) (“The legislative history of the
Lanham Act clearly indicates that Congress did not intend for the Act to chill political speech.”). Congress’s
concerns were well founded. As stated, the Alliance I
panel’s interpretation of the Lanham Act raises serious
constitutional concerns. Coalition limits itself to endorsements of political candidates, so its use of an
avian emblem similar to Alliance’s occurred only in the
context of engaging in political speech. Imposing liability under the Act on Coalition for its political speech,
then, results in the precise problem Congress aimed to
avoid: creating liability under federal trademark law
for actors exercising their free speech rights.
It is well established that commercial speech—
that is, speech that does “no more than propose a
commercial transaction,” Bolger v. Youngs Drug Prods.
Corp., 463 U.S. 60, 66 (1983)—is accorded only a “measure of First Amendment protection.” Indeed, “the government may freely regulate” misleading commercial
speech, the very speech that the Lanham Act was
meant to target. Florida Bar v. Went For It, Inc., 515

App. 32
U.S. 618, 623–24 (1995). By contrast, free speech protections are at their zenith in the context of political
speech precisely because such speech is at the heart of
the values embodied in the First Amendment. See
McIntyre v. Ohio Elecs. Comm’n, 514 U.S. 334, 346
(1995) (“Discussion of public issues and debate on the
qualifications of candidates are integral to the operation of the system of government established by our
Constitution. The First Amendment affords the broadest protection to such political expression in order to
assure the unfettered interchange of ideas for the
bringing about of political and social changes desired
by the people.” (cleaned up)). Extending liability under
the Lanham Act to noncommercial political speech
risks eroding the First Amendment’s safeguards for
political expression.6 Finally, under the canon that
“statutes should be interpreted to avoid constitutional
doubts,” Clark v. Martinez, 543 U.S. 371, 379 (2005), the
Lanham Act ought not be construed to apply to political speech in order to avoid a construction of the Act
that could conflict with the First Amendment.
Because Coalition only used its emblem in the context of political speech, the Lanham Act simply and
6

To the extent that there may be concern over permitting a
political organization to use marks that are confusingly similar
to those of another political entity, Justice Brandeis’s concurring opinion in Whitney v. California, 274 U.S. 357, 377 (1927)
(Brandeis, J., concurring), which Justice Holmes joined, suggests
an answer: “If there be time to expose through discussion the
falsehood and fallacies, to avert the evil by the processes of education, the remedy to be applied is more speech, not enforced silence.”

App. 33
obviously cannot be applied to its speech. Thus, the Alliance I panel’s decision to impose on Coalition liability
under the Act was clearly erroneous.7 Moreover, adhering to that grievously wrong decision will result in a
manifest injustice by stifling the political speech that
is key to the functioning of our democracy. The law-ofthe-case doctrine therefore does not stand as an impediment to correcting our past mistakes, and the majority
7

For nearly sixty years, this court has repeatedly and consistently explained that the law of the case does not apply when
a prior “decision is clearly erroneous and works manifest injustice.” Lincoln Nat. Life Ins. Co. v. Roosth, 306 F.2d 110, 113, (5th
Cir. 1962); accord Lumberman’s Mut. Cas. Co. v. Wright, 322 F.2d
759 (5th Cir. 1963); White v. Murtha, 377 F.2d 428, 432 (5th Cir.
1967); Morrow v. Dillard, 580 F.2d 1284, 1290 (5th Cir. 1978);
Goodpasture, Inc. v. M/V Pollux, 688 F.2d 1003, 1005–06 (5th Cir.
1982). Clear error is a familiar legal standard for reviewing prior
decisions that applies across various contexts. For example, appellate courts apply clear error in reviewing district court’s factual findings, Anderson v. City of Bessemer City, 470 U.S. 564, 573
(1985), and in reviewing discretionary decisions by district courts,
United States v. Walker, 772 F.2d 1172, 1176 n.9 (5th Cir. 1985).
A decision is clearly erroneous when the reviewing court is left
with “a definite and firm conviction” that the previous court was
in error. Id. Under this standard, based on the foregoing analysis,
it is plain that the decision in Alliance I was clearly erroneous.
On a handful of occasions, this court has stated that for a previous
decision to be “clearly erroneous” such that the exception to the
law-of-the-case doctrine for clearly erroneous and manifestly unjust rulings may apply, the prior decision must have been “dead
wrong.” E.g., City Pub. Serv. Bd. v. Gen. Elec. Co., 935 F.2d 78, 82
(5th Cir. 1991). But the “dead wrong” language has been employed infrequently and inconsistently and does not alter or supplant the proper and longstanding test for assessing whether a
previous ruling was clearly erroneous—that the appellate court
must have a definite and firm conviction that the prior decision
was wrong.

App. 34
errs in failing to do so. See Vahlco Corp., 895 F.2d at
1072–73.
II.
Beyond the fundamental error in Alliance I that
has infected the entire litigation, the district court’s
missteps on remand from Alliance II raise their own
set of problems. Foremost among them, the able district court acted outside the narrow ambit of our mandate. In Alliance II, we directed the district court to
undertake only one action on remand: reducing and reallocating its attorneys’ fee award to Alliance. 919 F.3d
291. Rather than heeding our mandate, the district
court (1) increased its fee award by awarding to Alliance fees incurred for time spent on the appeals in
Alliance I & II and in prosecuting its motion for attorneys’ fees, (2) sua sponte joined Jacobs as a party, and
(3) held Jacobs personally liable for the total augmented award. A brief summary of this case’s lengthy
procedural history makes manifest the district court’s
error.
At the outset of the litigation, Alliance claimed
that both Coalition’s “word mark”—its trade name,
Coalition for Better Government—and its “composite
mark”—its emblem—infringed on Alliance’s marks.
The district court agreed, enjoining Coalition from using both its trade name and emblem. Coalition appealed, and this court concluded that only Coalition’s
emblem, and not its trade name, violated the Lanham
Act. The Alliance I panel thus modified the district

App. 35
court’s injunction to restrain only Coalition’s use of the
emblem. See 901 F.3d at 514.
During the pendency of the first appeal, the district court determined that the case was “exceptional”
within the meaning of the Lanham Act’s attorneys’ fees
provision, 15 U.S.C. § 1117(a), and thus awarded Alliance, as the prevailing party, $68,237.50 in attorneys’
fees. Coalition appealed, and this court, in the second
appeal in this matter, affirmed the conclusion that the
case warranted an award of attorneys’ fees. Alliance II,
919 F.3d at 297.
The Alliance II panel noted, however, this court’s
earlier determination in Alliance I that Alliance had
prevailed only on its emblem claim. Hence, in Alliance
II, “we remand[ed] for the district court to reassess the
amount of fees” to omit work that furthered Alliance’s
trade-name claim from its fee calculation. Id. at 293.
Specifically, our mandate called only for the district
court “to account for billed time for claims on which Alliance did not prevail, and to adjust the fee award accordingly.” Id. at 298. We gave no indication that the
district court should take any action other than a
downward adjustment of the attorneys’ fees award.
In failing to hew to the constraints we imposed on
remand, the district court violated the well-established
mandate rule. That rule “provides that a lower court
on remand must implement both the letter and spirit
of the [appellate court’s] mandate.” Tollett, 285 F.3d at
364 (internal quotation marks omitted) (alterations in
original). Notably, the mandate rule extends both to

App. 36
those matters “decided expressly or by necessary implication” by the appeals court. DeJoria v. Maghreb Petroleum Expl., S.A., 938 F.3d 381, 394 (5th Cir. 2019). A
district court is “without power to do anything which
is contrary to either the letter or spirt of the mandate
construed in the light of the opinion of [the] court deciding the case.” Id. (alterations in original) (internal
quotation marks omitted).
The Supreme Court’s decision in Briggs v. Pa. R.R.
Co., 334 U.S. 304, 305 (1948), is instructive on how a
district court can run afoul of the mandate rule. Ire
that case, a jury returned a verdict of $42,500 in favor
of the plaintiff, but the: district court granted a postverdict motion to dismiss the case for lack of jurisdiction. Id. The appellate court, however, reversed and directed that the district court, in accordance with the
jury’s verdict, enter judgment for the plaintiff. Id. On
remand, despite the fact that the appellate court’s
mandate “made no provision for interest,” the district
court entered judgment and “added to the verdict interest from the date the [jury returned its verdict] to
the date of the judgment.” Id. The Supreme Court determined that it was “clear that the interest was in
excess of the terms of the mandate and hence was
wrongly included” by the district court. Id. at 306.
Briggs thus stands for the proposition that a district
court violates the mandate rules where it takes actions
on remand that the appeals court “made no provision
for,” thereby exceeding the “terms of the [appellate]
mandate.” Id.

App. 37
Tollett v. City of Kemah presented very similar
facts to the present appeal, and our decision there underscores the district court’s error. 285 F.3d at 364. In
Tollett, a district court awarded $5,000 in sanctions
against the defendant city and two of its employees.
The amount of the award was purportedly to compensate the plaintiff for attorneys’ fees and court
costs incurred in connection with the sanctioned entities’ discovery abuses. On appeal, plaintiff conceded
that the quantum of the sanctions was not supported
by proof of reasonable fees and costs. Thus, this court
vacated the award and “remand[ed] for a redetermination and assessment of reasonable attorney’s fees and
costs.” Id. at 362 (emphasis omitted).
But on remand the district court imposed sanctions and attorneys’ fees against not only the city but
also the city’s counsel, while dropping the fees it Had
previously assessed against the city’s employees. Id. at
363. The city and its attorney appealed, contending
that the district court violated the mandate rule. We
agreed, explaining that it was “clear from our opinion”
in the first appeal “that the district court was not to
redetermine . . . whether, and against whom, sanctions
should be imposed. The opinion expressly directed the
district court only to determine the proper amount to
impose as . . . sanctions.” Id. at 365. Accordingly, we,
once again, vacated the sanctions and fee award. Id. at
366; see Doe v. Chao, 511 F.3d 461, 466–67 (4th Cir.
2007) (holding that district court violated the mandate
rule when the appeals court’s mandate called only for
reconsideration of award of attorneys’ fees for work

App. 38
performed during district-court proceedings but, on remand, district court awarded fees for work performed
during appellate phase of the litigation); Wang v. Douglas Aircraft Co., 221 F.3d 1350, *1 (9th Cir. 2000) (unpublished) (district court violated mandate rule where
mandate directed court to determine whether a foreign
law firm was entitled to attorneys’ fees based on the
work performed by the firm but district court instead
awarded fees in accordance with terms of a letter
agreement between the foreign firm and a local firm
that reallocated fees; appeals court’s mandate “precluded any . . . inquiry” other than whether foreign
firm was entitled to fees based on its legal services, not
a letter agreement).
Here, too, the import of our directive to the district
court on remand was “clear”: it was only to reevaluate
its attorneys’ fee calculation in order to award Alliance
fees solely for time spent on the emblem claim, thereby
reducing its earlier award. The “necessary implication”
of our mandate was that the district court was barred
from doing anything other than reducing the fee
award. DeJoria, 935 F.3d at 394. Venturing beyond our
delimited directive, the district court sua sponte joined
Jacobs as a party to the case; held her personally liable;
and awarded additional attorneys’ fees against Coalition and Jacobs for Alliance’s prosecution of both appeals and its motion for attorneys’ fees, causing the
fee award to mushroom to over $148,000. But as in
Tollett, our directive to the district court “was not to
redetermine . . . against whom[ ] sanctions should be

App. 39
imposed,” nor was it to augment the sanctions. See id.
at 365.
Coalition is therefore correct that the district
court’s order was directly contrary to our mandate. The
majority, however, fails to mention this argument,
characterizing Jacobs and Coalition as merely contending that the district court was an “improper forum” for considering appellate attorneys’ fees. See Maj.
Op. at 10 n.54. True, Coalition made that assertion in
its briefing on appeal, but it also expressly objected to
the district court’s award of appellate attorneys’ fees
on a second basis; Coalition explained that the district
court’s decision is inconsistent with Alliance II because
in that appeal we ordered the district court only to recalculate attorneys’ fees to account for the claim on
which Alliance prevailed, and, as Coalition states in its
brief, “[n]othing in” our “opinion address[ed]” appellate
attorneys’ fees.
Because Coalition adequately raised the issue of
the district court’s compliance with the mandate rule,
and because the district court did not faithfully apply
our mandate in Alliance II, I cannot agree with the majority’s endorsement of the decision to join attorney Jacobs as a party to the case or to award Alliance
additional attorneys’ fees for time incurred in litigating the two appeals and its fees motion.
III.
Regrettably, in holding Jacobs personally liable for
the award of attorneys’ fees, this court becomes the

App. 40
first to my knowledge to sanction such liability against
a party’s counsel under the Lanham Act’s fee-shifting
provision, 15 U.S.C. § 1117(a). Indeed, the Federal Circuit, in construing that the Patent Act’s identicallyworded fee-shifting provision, has expressly held that
the provision cannot be used to impose liability for attorneys’ fees on a party’s counsel. Phonometrics, Inc.,
64 F. App’x at 222 (“Section 285 is a fee shifting statute
that in exceptional cases may require the losing party
to reimburse the prevailing party its attorney fees.
Sheraton[, the prevailing party,] has provided us with
no legal basis for entering a fee award against the losing party’s attorney under § 285. . . . Counsel for Phonometrics is not liable for fees awarded under § 285.”);
see also Baker, 821 F.3d at 623–24 (borrowing attorneys’ fees jurisprudence under the Patent Act to interpret the fee-shifting provision in the Lanham Act).
That no court has previously permitted imposing
attorneys’ fees against a party’s counsel under the
Lanham Act and that the Federal Circuit has held that
imposing such fees on an attorney is not authorized by
the Patent Act is unsurprising in light of the text of
the statutes’ attorneys’ fees provisions, which both
read: “The court in exceptional cases may award reasonable attorney fees to the prevailing party.” 15 U.S.C.
§ 1117(a); 35 U.S.C. § 285. Notably absent from the
provisions is any explicit authorization to impose attorneys’ fees against a party’s counsel. “When a feeshifting statute that authorizes the courts to award
attorneys’ fees to prevailing parties does not mention
an award against the losing party’s attorney, the

App. 41
appropriate inference is that an award against attorneys is not authorized.” Healey, 947 F.2d at 624. Section 1117(a) thus “stands in contrast to other sections
and [Federal] Rules [of Civil Procedure] that expressly
provide for the imposition of sanctions against attorneys,” id., such as 28 U.S.C. § 1927, which empowers
courts to order “[a]ny attorney” who “multiples the proceedings in any case unreasonably and vexatiously” to
pay the costs and attorneys’ fees incurred because of
their conduct, and Rule 11(b), which authorizes district
courts to award sanctions against “attorney[s]” for misconduct in an array of circumstances. The availability
of these traditional—and effective—tools to discipline
wayward behavior by counsel means that courts will
not be hampered in their ability to police proceedings
without applying § 1117(a) against’ a litigant’s counsel; similarly, these well-established provisions ensure
that parties can recover costs incurred as a result of
opposing counsel’s unprofessional conduct.
Further underscoring that Jacobs cannot be held
liable for the award of attorneys’ fees under § 1117(a)
for her representation of Coalition is that, even in
cases where courts have imposed attorneys’ fees personally on individuals who were not party to the underlying litigation, they have done so not against a
party’s counsel; rather, attorneys’ fees have been assessed against individuals who served as a company’s
president, owner, or sole shareholder when that individual’s conduct caused the case to be “exceptional” under a proper interpretation of the Lanham or Patent
Acts. See, e.g., Mach. Corp. of Am. v. Gullfiber AB, 774

App. 42
F.2d 467, 475 (Fed. Cir. 1985) (holding that an individual who was “not a proper party to” the claims for violation of the Patent Act “may be assessed fees under
§ 285 [of the Patent Act] if his conduct supports a finding that the case is exceptional” (citing Hughes v. Novi
American, Inc., 724 F.2d 122 (Fed. Cir. 1984)); Iris Conner, LLC v. Dell, Inc., 235 F. Supp. 3d 826, 852–53 (E.D.
Tex. 2017) (imposing attorneys’ fees against a company
that filed a meritless patent-infringement suit and
holding the owner of the company jointly liable for the
fees where the owner was the “driving force behind
th[e] litigation” and was “responsible” for making the
case exceptional). Indeed, the majority states that its
decision to hold Jacobs personally liable is rooted in
the notion that “[a]n officer is individually liable for
any tortious conduct that he committed in connection
with his corporate duties.” Maj. Op. at 7 (internal quotation marks omitted). But the principle of imposing
liability for attorneys’ fees not only on the business
that is the party to the case but also on the individual
who stands behind that business and directs its conduct has no application to an attorney representing
her client; attorneys initiate and prosecute cases at the
behest of their clients, but it is the client who ultimately must decide whether to bring a case. Thus,
when the fee-shifting provision is applied to individuals who were not party to the underlying litigation, it
should be reserved for those who, in their capacity as
a high-level officer or owner of an organization, make

App. 43
a case exceptional. See Mach. Corp. of Am., 774 F.2d at
475.8

8

The majority cites Jacobs’s leadership role within Coalition
as a basis for holding her personally liable for the fee award. Maj.
Op. at 8. But this misapprehends the basis of the district court’s
decision to hold Jacobs liable for the fee award; the district court
expressly cited Jacobs’s conduct as Coalition’s counsel—not her
position within Coalition’s corporate structure—as rendering the
case “exceptional” under the Lanham Act and thus justifying imposing liability for the award on her personally. Indeed, in its order holding Jacobs personally liable, the district court discussed
only Jacobs’s actions as an attorney for Coalition: “Jacobs is personally responsible for” filing a meritless “motion for summary
judgment, . . . counterclaim, and . . . motion to dismiss because
she personally signed them, thus certifying that they were not
presented for any improper purpose and were not frivolous.” The
court further found that Jacobs’s conduct rendered the case exceptional because she was “personally responsible” for abuses in
discovery that necessitated issuance of a protective order to prevent a wasteful deposition; “she was the one who insisted on
proceeding with the depositions even after the Court granted
summary judgment and Alliance informed the Court that it would
not pursue its remaining claim.” Wholly absent from the court’s
order is any mention of actions undertaken by Jacobs in her position as an officer or principal of Coalition. The majority’s citations
to Nelson v. Adams USA, Inc., 529 U.S. 460 (2000) and Insituform
Technologies, Inc. v. CAT Contracting, Inc., 385 F.3d 1360 (Fed.
Cir. 2004) are therefore inapposite; those cases concern imposition of personal liability for fees on non-lawyers who had senior
roles in organizations that had already been held liable for the
fees in question. It was precisely the individuals’ wrongful conduct—alleged conduct, in Nelson—that was undertaken in their
positions within their respective organizations that permitted—
or would permit, in Nelson—holding them personally liable for
the fees imposed on their organizations. Conversely, the district
court sought to hold Jacobs liable based not on her role and work
within Coalition but instead for her conduct as its counsel.

App. 44
In sum, Coalition and Jacobs may not be held liable for anything in this case because no Lanham Act
claim arises from Coalition’s noncommercial political
speech, and, independently of that, no Lanham Act defendant’s counsel may be cast for attorneys’ fees under
the Act’s fee-shifting provision.9 See Healey, 947 F.2d
at 624, cf. Phonometrics, Inc., 64 F. App’x at 222.
Bereft of authority under the Lanham Act to impose fees directly on Jacobs, the district court’s decision
resembles an attempt to pierce Coalition’s corporate
veil. But during the proceedings in the district court,
Alliance never attempted to pierce Coalition’s corporate veil; in fact, its motion for attorneys’ fees makes
no mention of veil piercing nor asserts that Jacobs is
the alter ego of Coalition. Cf. Huard v. Shreveport
Pirates, Inc., 147 F.3d 406, 409–10 (5th Cir. 1998)
9

Jacobs was joined as a party only after this court held that
Coalition had waived its noncommercial speech and First Amendment defenses, and thus never had the opportunity to lodge these
defenses on her own behalf in this court. Now, when she attempts
to advance those arguments to protect herself from personal liability, the majority holds the law of the case precludes her doing
so. Maj. Op. at 11. This is highly inequitable, particularly in light
of the clear merit of her constitutional and statutory defenses,
which she has never personally waived. The majority attempts to
justify its decision on the grounds that the merits of the infringement claim itself are no longer at issue, and the question now is
only one of the appropriate amount of attorneys’ fees. Maj. Op. at
11. But the majority offers no analysis as to why Coalition’s litigation choices somehow bind Jacobs personally, and, as noted
infra, there was no finding by the district court that Jacobs controlled Coalition such that its litigation conduct could be attributed to her. The majority thus errs in stripping Jacobs of the
opportunity to marshal her full array of defenses.

App. 45
(observing that, under Louisiana law, “a plaintiff seeking to pierce the corporate veil” must either demonstrate that the corporate form was used “to perpetuate
fraud” or must “bear[ ] a heavy burden of proof in
demonstrating that the corporate form has been disregarded by the shareholders to the extent that the corporation and shareholders are indistinguishable “).10
In the absence of any argument that the district court
should pierce Coalition’s corporate veil, it is unsurprising that the court did not make any of the predicate
findings necessary to disregard the legally distinct juridical identities of Coalition and Jacobs; there was no
finding that Coalition was the alter ego of Jacobs, that
Coalition disregarded corporate formalities, or that Coalition was used by Jacobs to perpetuate a fraud. See
id. And in its briefing in this appeal, Alliance expressly
disclaims that it seeks to veil pierce, contending instead that it could do so in a separate lawsuit. Under
these circumstances, veil piercing is obviously inappropriate and cannot support the district court’s decision to thrust upon Jacobs the liability for fees charged
to Coalition.
Accordingly, the district court was without authority under the Lanham Act to hold Jacobs directly and
personally liable for attorneys’ fees, did not invoke any
other source of authority to hold Jacobs liable in her
10

“Whether to apply Louisiana or federal law is not an issue.
State and federal alter ego tests are essentially the same. Our
non-diversity alter ego cases rarely state whether a state or federal standard controls, and apply state and federal cases interchangeably.” Century Hotels v. United States, 952 F.2d 107, 110
n.4 (5th Cir. 1992).

App. 46
capacity as an attorney, and could not and did not
make the findings necessary to pierce Coalition’s corporate veil.
*

*

*

In conclusion, this court’s decision in Alliance I
does violence to the text of the Lanham Act by expanding the statute into territory it was never intended to
reach—noncommercial and political speech—and, worse
yet, authorizes applying the Act in a manner that invades constitutionally-protected political speech and
will embroil federal courts in local political disputes.
Alliance I and the tainted rulings it spawned must
therefore be corrected to prevent Coalition from suffering an injustice in this case and, more broadly, to reform this court’s Lanham Act caselaw to avert chilling
the speech of other organizations and individuals that
likewise engage only in political speech. Accordingly,
this panel should recall the mandates in Alliance I and
II vacate all judgments imposing liability under the
Lanham Act on Coalition for its political speech, and
instruct the district court to dismiss Alliance’s Lanham
Act claim with prejudice. For these reasons and those
set forth above, I respectfully dissent.

App. 47
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
ALLIANCE FOR GOOD
GOVERNMENT

CIVIL ACTION

VERSUS

SECTION: “J”(2)

No. 17-3679

COALITION FOR BETTER
GOVERNMENT
JUDGMENT
(Filed Mar. 30, 2020)
Considering the Court’s Order and Reasons dated
March 30, 2020, filed herein,
IT IS ORDERED, ADJUDGED AND DECREED
that there be judgment in favor of plaintiff, Alliance for
Good Government, and against defendants, Coalition
for Better Government and Darlene Jacobs, jointly and
in solido, awarding plaintiff, Alliance for Good Government, attorney’s fees in the amount of $148,006.15,
plus legal interest from the date of this judgment until
paid.
New Orleans, Louisiana, this 30th day of March,
2020.
/s/ Carl J. Barbier
CARL J. BARBIER
UNITED STATES
DISTRICT JUDGE

App. 48
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
ALLIANCE FOR GOOD
GOVERNMENT

CIVIL ACTION

VERSUS

SECTION: “J”(2)

No. 17-3679

COALITION FOR BETTER
GOVERNMENT
ORDER AND REASONS
(Filed Mar. 30, 2020)
Before the Court is a Motion for Attorney Fees
(Rec. Doc. 124) filed by Plaintiff Alliance for Good
Government (“Alliance”). Having considered the motion and memoranda, the record, and the applicable
law, the Court finds that Alliance’s motion should be
GRANTED as explained more fully herein.
FACTS AND PROCEDURAL HISTORY
The facts underlying this dispute are set forth
more fully in the Fifth Circuit’s earlier opinion in this
case. See All. for Good Gov’t v. Coal. for Better Gov’t
(Alliance I), 901 F.3d 498, 501-04 (5th Cir. 2018). The
following is a summary of the procedural history as
relevant to the instant motion.
The Court granted partial summary judgment in
favor of Alliance on its federal trademark infringement

App. 49
claim,1 and permanently enjoined Defendant Coalition
for Better Government (“Coalition”) from using both
its trade name and its logo.2 On appeal, the Fifth Circuit affirmed the grant of summary judgment but
modified the injunction to restrain only Coalition’s use
of its logo. Alliance I, 901 F.3d at 502.
While that appeal was pending, Alliance moved for
attorney’s fees under the Lanham Act.3 The Court
found that the case was exceptional and awarded Alliance $68,237.25 in attorney’s fees, the full amount it
requested.4 On appeal, the Fifth Circuit affirmed this
Court’s holding that Alliance is entitled to attorney’s
fees but vacated the fee award and remanded the case
to this Court to reassess the amount in light of its
earlier decision to modify the injunction. All. for Good
Gov’t v. Coal. for Better Gov’t (Alliance II), 919 F.3d 291,
297-98 (5th Cir. 2019).
During post-judgment discovery, Alliance learned
that Coalition does not have a bank account, financial
assets, insurance policies, accounts, or property.5 As
a result, Alliance moved to alter the Fee Judgment
to hold Darleen Jacobs, lead counsel for Coalition,
directly liable for fees because, Alliance contended,
Ms. Jacobs was responsible for making this case

1
2
3
4
5

(Rec. Doc. 43).
(Rec. Doc. 55).
(Rec. Doc. 61).
(Rec. Doc. 82).
(Rec. Doc. 102-3, at 4-9).

App. 50
exceptional by her own conduct.6 Following remand
from Coalition’s second appeal, the Court joined Ms.
Jacobs as a party so that she would have an opportunity to respond to Alliance’s motion on her own behalf,7 which she did.8 Alliance’s motion for attorney’s
fees is now before the Court on the briefs and without
oral argument.
LEGAL STANDARD
Under the Lanham act, in “exceptional cases,” the
prevailing party may be awarded “reasonable attorney
fees.” 15 U.S.C. § 1117(a). An exceptional case is one
that “ ‘stands out from others with respect to the substantive strength of a party’s litigating position (considering both the governing law and the facts of the
case) or the unreasonable manner in which the case
was litigated.’ ” Alliance II, 919 F.3d at 295 (citation
omitted). “When a party advances both Lanham Act
and non-Lanham Act claims, a district court should
make efforts to award fees only for successful Lanham
Act claims.” Id. at 297. “ ‘[T]he impossibility of making
an exact apportionment does not relieve the district
court of its duty to make some attempt to adjust the
fee award in an effort to reflect an apportionment.’ ” Id.
at 298 (quoting Gracie v. Gracie, 217 F.3d 1060, 1070
(9th Cir. 2000)).

6
7
8

(Rec. Doc. 102).
(Rec. Doc. 133).
(Rec. Doc. 135).

App. 51
In determining the appropriate fee award, the
“lodestar” calculation is the “most useful starting point.”
Hensley v. Eckerhart, 461 U.S. 424, 433 (1983). The
lodestar calculation consists of the number of hours
reasonably expended on the litigation multiplied by a
reasonable hourly rate. La. Power & Light Co. v.
Kellstrom, 50 F.3d 319, 324 (5th Cir. 1995). The court
may then adjust the lodestar either upward or downward, depending on the circumstances of the case. Id.
DISCUSSION
The Fifth Circuit affirmed this Court’s finding that
this case was exceptional and therefore Alliance is entitled to attorney’s fees but vacated the fee award because the amount was improperly calculated. Alliance
II, 919 F.3d at 297-98. Alliance now seeks (1) to hold
Darlene Jacobs personally liable for (2) $146,318.65 in
attorney’s fees, which includes its fees incurred on appeal.
I.
Alliance seeks to impose personal liability for attorney’s fees on Darlene Jacobs, president, director,
and lead counsel for Coalition. Thus, the Court granted
Alliance’s request to join Jacobs as a party to these proceedings so that she would have an opportunity to respond to Alliance’s motion and contest her personal

App. 52
liability.9 See Nelson v. Adams USA, Inc., 529 U.S. 460,
471-72 (2000).
Alliance contends that imposing liability on Jacobs is necessary because she “runs Coalition as an
empty shell with no bank account or assets of any
kind” and has employed a “litigation strategy designed
to bankrupt Alliance even if it prevailed.”10 In support
of its position, Alliance relies on Iris Connex, LLC v.
Dell, Inc., 235 F. Supp. 3d 826, 843 (E.D. Tex. 2017), in
which the district court found that liability under the
Patent Act11 could be assessed against non-parties
where “(1) the actor is responsible for conduct that
makes the case exceptional, (2) the actor is afforded
due process, and (3) it is equitable to do so.”
In Nelson v. Adams USA, Inc., after the district
court dismissed the plaintiff ’s patent infringement
complaint, granted defendant’s motion for attorney’s
fees, and set the amount of the fee award, the defendant moved to amend its pleadings to add the plaintiff ’s president and sole shareholder as a party from
whom fees could be collected. 529 U.S. at 463-64. The
defendant simultaneously sought to amend the attorney’s fee judgment to impose liability on the

9

(Rec. Doc. 133).
(Rec. Doc. 124-1, at 15-16).
11
The Fifth Circuit has recognized that cases interpreting
the fee-shifting provision of the Patent Act are instructive in cases
applying the fee-shifting provision of the Lanham Act. See Baker
v. DeShong, 821 F.3d 620, 623 & n.1 (5th Cir. 2016).
10

App. 53
shareholder, which the district court granted. Id. at
464. The Court of Appeals affirmed the amended judgment. Id.
The Supreme Court reversed, holding that the
shareholder’s right to due process had been violated
because he “was never afforded a proper opportunity
to respond to the claim against him.” Id. at 468. The
Court noted that the shareholder was never served
with the amended pleading naming him as a party, nor
was he afforded the time allowed to respond to an
amended pleading by Rule 15. Id. at 466. The Court
concluded that, even though there was “sufficient identity between” the shareholder and the plaintiff corporation, the shareholder’s conduct was responsible for
making the case exceptional, and the shareholder had
actual notice that the defendant was seeking attorney’s fees from the plaintiff corporation, the district
court was required to afford the shareholder an “actual
opportunity to defend” against the claims against him.
Id. at 470-71. Significantly, the Court noted, “Our decision surely does not insulate [the shareholder] from liability. As counsel twice represented at oral argument,
[the shareholder] seeks only the right to contest on the
merits his personal liability for fees originally sought
and awarded solely against [plaintiff corporation].
That right, we hold, is just what due process affords
him.” Id. at 472.
The Iris Connex court distinguished Nelson because it found the due process concerns raised in
Nelson sufficiently addressed. 235 F. Supp. 3d at 843
n.5. Specifically, the Iris Connex court had sua sponte

App. 54
joined the non-party, allowed additional time for briefing, and held a live hearing in which the former nonparty had an opportunity to testify before awarding
attorney’s fees and imposing personal liability. Id. at
839-40. Notably, all of this had been done after the
court granted summary judgment on the substantive
claims. Id. at 832-33.
Here, the Court did not sua sponte join Jacobs but
did so at the request of Alliance after Coalition,
through Jacobs, had an opportunity to oppose the request. Thus, Jacobs’s arguments based on Nelson are
unavailing because, unlike the shareholder there, the
Court has afforded her an “actual opportunity to defend” against the claim against her, an opportunity she
has utilized by opposing the instant motion. Nelson,
529 U.S. at 470. Jacobs’s argument that an amended
pleading is required to add her as a party fails to recognize the Court’s authority to add a party under Rule
21. See Fed. R. Civ. P. 21 (“On motion or on its own, the
court may at any time, on just terms, add or drop a
party.”).
Jacobs also contends that the use of a “motion,” as
opposed to a “pleading,” to join her as a party violates
due process because it deprives her of several benefits
under the Federal Rules of Civil Procedure that would
allow her to prepare an appropriate defense, including
the ability to raise defenses, discover evidence and witnesses, or have her liability determined by a jury. However, Jacobs does not indicate what defenses she hopes
to raise or what evidence she hopes to discover, nor
does she provide any authority that she is entitled to a

App. 55
jury in this context. See AIA Am., Inc. v. Avid Radiopharmaceuticals, 866 F.3d 1369, 1373 (Fed. Cir. 2017)
(holding that claim for attorney’s fees under the Patent
Act did not invoke right to jury trial); see also Baker,
821 F.3d at 623 & n.1. Moreover, “[t]he fundamental
requirement of due process is the opportunity to be
heard ‘at a meaningful time and in a meaningful manner,’ ” Matthews v. Eldridge, 424 U.S. 319, 333 (1976)
(citation omitted), and Jacobs has been afforded such
here.
Jacobs’s arguments that the Lanham Act does not
apply to her individually and that there has been no
determination that she individually violated the Lanham Act are unavailing because a claim for attorney’s
fees in this context is “ ‘collateral to and separate from
the decision on the merits,’ ” AIA Am., Inc., 866 F.3d at
1373 (quoting Bundinich v. Benton Dickinson & Co.,
486 U.S. 196, 200 (1988)), and the purpose of the feeshifting provision is “to deter exceptional litigation,”
Iris Connex, 235 F. Supp. 3d at 854. Thus, the relevant
question is not whether Jacobs personally infringed on
Alliance’s trademarks but whether her conduct made
this litigation exceptional. This same rationale defeats
Jacobs’s argument that the First Amendment prevents
the assessment of attorney’s fees against her, because
what is at issue is her conduct that made this litigation
exceptional, not her speech in using Coalition’s logo.
Notably, Jacobs does not argue that she is not personally responsible for making this litigation exceptional. This is unsurprising, because her conduct was
the sole reason this litigation has been exceptional.

App. 56
The Court previously found that Coalition litigated
this case in an unreasonable manner by (1) filing a motion for summary judgment raising only an unsupported laches defense; (2) filing a counterclaim without
any actionable conduct; (3) filing a motion to dismiss
two weeks before filing a motion for summary judgment, which rendered the former moot; and (4) behaving unreasonably during discovery by, e.g., refusing to
postpone depositions following the Court’s grant of
summary judgment to Alliance, thereby necessitating
a protective order.12 Jacobs is personally responsible
for the motion for summary judgment, the counterclaim, and the motion to dismiss because she personally signed them, thus certifying that they were not
presented for any improper purpose and were not frivolous.13 See Fed. R. Civ. P. 11(b). Jacobs was also personally responsible for the protective order because
she was the one who insisted on proceeding with the
depositions even after the Court granted summary
judgment and Alliance informed the Court that it
would not pursue its remaining claims.14 Additionally,
on remand from the second appeal, Jacobs attempted
to file a brief on behalf of Coalition contesting Alliance’s entitlement to fees, which this Court had already decided and the Fifth Circuit had affirmed.15
Accordingly, the Court finds that Jacobs is responsible
12

(Rec. Doc. 86, at 6-7).
(Rec. Doc. 19, at 2; Rec. Doc. 20, at 1; Rec. Doc. 26, at 1; see
also Rec. Doc. 43 (denying motion to dismiss as moot)).
14
(Rec. Doc. 44-1, at 2 n.3; Rec. Doc. 47, at 2).
15
(Rec. Doc. 131).
13

App. 57
for making this litigation exceptional. See Iris Connex,
235 F. Supp. 3d at 843.
Second, the Court finds that the requirements of
due process are met because Jacobs received notice
and an opportunity to be heard: she was personally
served with the Court’s order adding her as a party
and the motion for attorney’s fees, as well as all responses to the motion,16 and she was afforded an opportunity to defend against the claim, which she has.17
See Nelson, 529 U.S. at 472; Iris Connex, 235 F. Supp.
3d at 843.
Finally, the Court concludes that it is equitable to
impose attorney’s fees on Jacobs personally because,
as the founder and president of Coalition, she is responsible for Coalition’s inability to satisfy the fee
award by operating it without dedicated funds or a
bank account and paying for its expenses personally.
See Iris Connex, 235 F. Supp. 3d at 843.
Jacobs did not need to litigate this case in an unreasonable manner. Her decisions to do so have led the
Court to conclude that imposing attorney’s fees on her
personally is necessary to deter exceptional litigation,
both from this litigant and as a warning to others. Accordingly, the Court holds that Jacobs is personally liable for Alliance’s attorney’s fees incurred in this
litigation.

16
17

(Rec. Doc. 134-1).
(Rec. Doc. 135).

App. 58
II.
Having determined that both Coalition and Jacobs
are liable for Alliance’s attorney’s fees, the issue remaining before the Court is the amount of the fee
award. To resolve this issue, the Court must decide
three sub-issues: (1) whether Alliance is entitled to
recover its attorney’s fees incurred on appeal; (2)
whether the amount requested by Alliance is reasonable; and (3) whether Coalition is entitled to an offset as
a result of the Fifth Circuit’s modification of the injunction.
A. Whether Alliance Is Entitled to Recover
Fees Incurred on Appeal
Coalition contends that this Court is not the
proper forum for Alliance’s request for appellate attorney’s fees. In arguing that it is entitled to recover its
attorney’s fees incurred on appeal, Alliance relies on
Kiva Kitchen & Bath, Inc. v. Capital Distributing, Inc.,
681 F. Supp. 2d 807, 809-12 (S.D. Tex. 2010), where the
district court found that the prevailing plaintiff in a
Lanham Act case was entitled to recover its appellate
attorney’s fees, relying on precedent from the First,
Seventh, and Ninth Circuits. See JCW Inv., Inc. v. Novelty, Inc., 509 F.3d 339, 341 (7th Cir. 2007); Tamko Roofing Prods., Inc. v. Ideal Roofing Co., 294 F.3d 227, 230
(1st Cir. 2002);18 Comm. for Idaho’s High Desert, Inc. v.
18

The First Circuit in Tamko developed a three-part test for
determining when appellate attorney’s fees should be awarded
under the Lanham Act. 294 F.3d at 230. Because Coalition has

App. 59
Yost, 92 F.3d 814, 825 (9th Cir. 1996); see also Dippin’
Dots, Inc. v. Mosey, 602 F. Supp. 2d 777, 785 (N.D. Tex.
2009) (awarding appellate attorney’s fees on remand in
Patent Act case).
Coalition provides no authority that prohibits a
district court from awarding attorney’s fees incurred
on appeal; the cases relied on by Coalition are inapposite. In Sims v. Great-West Life Assurance Co., the Fifth
Circuit denied the motions for attorney’s fees because
they were untimely. 941 F.2d 368, 370 (5th Cir. 1991).
Sims says nothing about the propriety of a district
court awarding appellate attorney’s fees. Additionally,
Exxon Corp. v. Burglin only concerned attorney’s fees
under Federal Rule of Appellate Procedure 38, not the
Lanham Act; the underlying action was brought under state law. 42 F.3d 948, 952 (5th Cir. 1995). Further,
Burglin did not hold that a district court could not
award appellate attorney’s fees; it only held that such
fees were not warranted under the facts of that case.
See id. Accordingly, the Court concludes that Alliance
may recover its appellate attorney’s fees.
B. Whether Alliance’s Requested Fee Award
Is Reasonable
In light of the Fifth Circuit’s decision in Alliance
II, Alliance now seeks to recover its attorney’s fees
for (1) obtaining summary judgment on its claim for
infringement of its composite mark; (2) successfully
not argued for application of that test, the Court will not consider
it.

App. 60
defending that summary judgment on appeal; (3) litigating its entitlement to exceptional case fees; (4) successfully defending its entitlement to exceptional case
fees on appeal; and (5) imposing liability on Ms. Jacobs
directly. Alliance seeks a total of $146,318.65 in fees.
Alliance contends that it has incurred $131,151.00 in
fees as of the filing of its motion, excluding its motion
to amend the fee judgment (the “Jacobs Fee Motion”),
and proposes to reduce this amount by $1,500.00 for
its claims that were voluntarily dismissed and then by
an additional 10% to account for time relating solely to
the claim for infringement of the word mark, in accordance with the Fifth Circuit’s instructions in Alliance II,
resulting in a fee award of $116,685.90. Alliance also
seeks fees for bringing the instant motion, which were
$7,818.75 as of the filing of the motion, and contends
it is entitled to additional fees for its replies. Finally,
Alliance contends that if the Court imposes personal
liability on Jacobs then it is entitled to fees for the
Jacobs Fee Motion, which amount to $21,814.00.
The Court previously determined that the rates
charged by Alliance’s attorneys were reasonable,19 and
Coalition does not challenge them here. Therefore, the
Court finds that the rates of $225 per hour for Mr.
Sahuc and $285 per hour for Mr. Latham are reasonable.20

19

(Rec. Doc. 86, at 9).
These rates represent an 18% discount of Mr. Sahuc’s
usual rate and a 26% discount of Mr. Latham’s usual rate. (Rec.
Doc. 124-2, at 5).
20

App. 61
Alliance has submitted evidence showing that it
spent 688.6 hours on this matter.21 Because Mr. Sahuc
performed over 85% of the work on this case, with the
remainder performed either by Mr. Latham or a paralegal, the Court will use his rate to determine the lodestar, keeping in mind that deductions must be made
for the claims Alliance voluntarily dismissed and its
word mark claim on which it did not prevail. Under
this method, the lodestar is $154,935.00, which is more
than Alliance’s requested amount.
Coalition raises several objections to the number
of hours submitted by Alliance. First, Coalition objects
to the fact that the time entries fail to distinguish between work done on the composite mark claim and the
word mark claim, and also between the Lanham Act
claim and the other claims that were voluntarily dismissed. However, Coalition fails to acknowledge Alliance’s proposed reductions, which the Court agrees are
reasonable.
Prior to the Fifth Circuit’s opinion in Alliance I,
the parties made little distinction between the word
mark and composite mark claims. The allegations in
Alliance’s complaint did not differentiate between the
marks with respect to the infringement claim.22 Coalition’s summary judgment motion was premised on a
laches defense common to both claims.23 Coalition’s
appellate brief in the merits appeal did not make any
21
22
23

(Rec. Doc. 124-2, at 2; Rec. Doc. 124-3).
(Rec. Doc. 1, at 5-6).
(Rec. Doc. 26-1).

App. 62
distinction between the word and composite marks
except for a single footnote at the end of the brief.24
Alliance spent only two paragraphs discussing the
word mark separately in both its summary judgment
motion25 and its appellate brief.26 In light of the intertwined nature of the claims, the Court finds Alliance’s
proposed 10% reduction to be reasonable. Additionally,
the Court agrees that a reduction of $1,500.00 for the
claims that Alliance voluntarily dismissed to be reasonable, as Coalition has not identified any other billing entries that should be reduced on this ground.
Second, Coalition objects that portions of several
billing entries are redacted. Alliance contends that
these redactions are subject to privilege and offers to
provide the Court with an unredacted version for incamera review. The Court notes that such a review
would only increase the fees owed to Alliance by Coalition and finds such review unnecessary because Coalition has failed to support this argument with any legal
authority.
Third, Coalition objects to several entries involving Mr. Fandal, chair of Alliance’s board of directors,27
because “Coalition is unaware of any reason for Mr.

24
25
26
27

(Rec. Doc. 124-4, at 22 n.45).
(Rec. Doc. 28-1, at 14-15).
(Rec. Doc. 124-5, at 37-38).
(See Rec. Doc. 102-8, at 1).

App. 63
Fandal’s involvement in this matter.”28 The Court finds
this argument frivolous.
Fourth, Coalition objects to Alliance seeking fees
for the time it spent litigating the fee issue, particularly Alliance’s entitlement to fees for reply briefs.
However, Alliance has provided authority showing its
entitlement to such fees, see Camacho v. Bridgeport Financial, Inc., 523 F.3d 973, 981 (9th Cir. 2008) (“In statutory fee cases, federal courts, including our own, have
uniformly held that time spent in establishing the entitlement to and amount of the fee is compensable.”
(citation omitted)), and Coalition presents no authority
to the contrary.
Likewise, Coalition contends without authority
that 21.25 hours for oral argument preparation in the
merits appeal and 90.65 hours total for the fee appeal, including 29 hours for oral argument preparation, are unreasonable. The Court disagrees. See Black
v. SettlePou, P.C., No. 3:10-CV-1418-K, 2014 WL 3534991,
at *9-10 (N.D. Tex. July 17, 2014) (holding 80 hours of
appellate briefing and 32 hours of oral argument preparation to be reasonable); Shepard v. Dallas County,
3:05-CV-1442-D, 2010 WL 2573346, at *3 (N.D. Tex.
June 24, 2010) (holding 80 hours of appellate briefing
and 24 hours of oral argument preparation to be reasonable); Maldonado v. Houstoun, 256 F.3d 181, 187
(3d Cir. 2001) (holding 26 hours of oral argument preparation to be reasonable).

28

(Rec. Doc. 125, at 14).

App. 64
Finally, Coalition challenges the following billing
entries: (1) 2.5 hours considering whether to participate in the Fifth Circuit mediation program; (2) 6.75
hours for a motion to consolidate appeals and continue
oral argument, which the Fifth Circuit denied; and (3)
0.75 hours spent considering whether to file a surreply.
Alliance asserts that these tasks amount to a total of
$2,260.00 in fees. To the extent these entries are improper, the Court finds that they are adequately accounted for in the 10% reduction proposed by Alliance.
See SettlePou, 2014 WL 3534991, at *2.
In light of the foregoing, the Court finds Alliance’s
requested fee amount of $146,318.65 to be reasonable.
However, instead of allowing the parties to submit additional briefing on Alliance’s outstanding fees, which
would result in it incurring even more fees, the Court
will estimate the amount incurred by Alliance in filing
its two reply briefs,29 which is the only work unaccounted for in the fee award.
Alliance spent 3.75 hours on its reply brief for its
motion for summary judgment,30 3.25 hours on its reply brief for its motion for final judgment,31 approximately 2.0 hours on its reply brief for its original
motion for attorney’s fees,32 11.5 hours on its reply
brief for its motion for appellate attorney’s fees33 and
29
30
31
32
33

(Rec. Docs. 129, 138).
(Rec. Doc. 124-3, at 13).
Id. at 16-17.
Id. at 19.
Id. at 32.

App. 65
approximately 12 hours on its reply brief for the Jacobs
Fee Motion.34 Considering these amounts and the substance of the reply briefs, the Court concludes that 5
hours for Alliance’s reply to Coalition’s opposition and
2.5 hours for Alliance’s reply to Jacobs’s opposition is
reasonable. See SEC v. Faulkner, No. 3:16-CV-1735-D,
2018 WL 5924042, at *3 (N.D. Tex. Nov. 13, 2018) (finding 14.1 hours for a single reply brief addressing a new,
complex issue to be reasonable). Using Mr. Sahuc’s rate
of $225 per hour, the Court finds that Alliance should
be awarded $1,687.50 for this work.
Accordingly, Alliance’s total award for attorney’s
fees is $148,006.15. The Court concludes this amount
is reasonable and does not require further adjustment.
C. Whether Coalition Is Entitled to an Offset
Coalition also contends that it is entitled to an offset of Alliance’s fee award for its own attorney’s fees
based on it “prevailing” on both appeals and for opposing the instant motion. To be entitled to attorney’s fees
under the Lanham Act, Coalition must demonstrate
that its “case ‘stands out from others with respect to
the substantive strength of a party’s litigating position
(considering both the governing law and the facts of
the case) or the unreasonable manner in which the
case was litigated.’ ” Alliance II, 919 F.3d at 295

34

Id. at 33.

App. 66
(citation omitted). Coalition has made no such showing. Accordingly, it is not entitled to an offset.35
CONCLUSION
Accordingly,
IT IS HEREBY ORDERED that Alliance’s Motion for Attorney’s Fees (Rec. Doc. 124) is GRANTED,
and Alliance is awarded $148,006.15 in attorney’s fees.
New Orleans, Louisiana, this 30th day of March,
2020.
/s/ Carl J. Barbier
CARL J. BARBIER
UNITED STATES
DISTRICT JUDGE

35
The Court also notes that Coalition previously requested
these fees in a separate motion (Rec. Doc. 120), which the Court
denied (Rec. Doc. 122).

App. 67
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
ALLIANCE FOR GOOD
GOVERNMENT

CIVIL ACTION
No. 17-3679

VERSUS
COALITION FOR BETTER
GOVERNMENT

SECTION: “J”(2)

ORDER
(Filed Aug. 30, 2019)
Before the Court is a Motion for Attorney Fees
(Rec. Doc. 124) filed by Plaintiff Alliance for Good
Government (“Alliance”). Alliance seeks to join Darlene
Jacobs, president, director, and lead counsel for Defendant Coalition for Better Government (“Coalition”),
in order to hold her personally liable for any attorney’s
fees owed by Coalition to Alliance. Alliance contends
that joinder of Ms. Jacobs is necessary because she
“runs Coalition as an empty shell with no bank account
or assets of any kind” and has employed a “litigation
strategy designed to bankrupt Alliance even if it prevailed.”1 In support of its position, Alliance relies on
Iris Connex, LLC v. Dell, Inc., 235 F. Supp. 3d 826, 843
(E.D. Tex. 2017), in which the district court found
that liability under the Patent Act2 could be assessed
1

(Rec. Doc. 124-1, at 15-16).
The Fifth Circuit has recognized that cases interpreting the
fee-shifting provision of the Patent Act are instructive in cases
applying the fee-shifting provision of the Lanham Act. See Baker
v. DeShong, 821 F.3d 620, 623 & n.1 (5th Cir. 2016).
2

App. 68
against non-parties where “(1) the actor is responsible
for conduct that makes the case exceptional, (2) the actor is afforded due process, and (3) it is equitable to do
so.”
In Nelson v. Adams USA, Inc., 529 U.S. 460, 463–
64 (2000), after the district court dismissed the plaintiffs patent infringement complaint, granted defendant’s motion for attorney’s fees, and set the amount of
the fee award, the defendant moved to amend its
pleadings to add the plaintiff ’s president and sole
shareholder as a party from whom fees could be collected. The defendant simultaneously sought to amend
the attorney’s fee judgment to impose liability on the
shareholder, which the district court granted. Id. at
464. The Court of Appeals affirmed the amended judgment. Id.
The Supreme Court reversed, holding that the
shareholder’s right to due process had been violated
because he “was never afforded a proper opportunity
to respond to the claim against him.” Id. at 468. The
Court noted that the shareholder was never served
with the amended pleading naming him as a party, nor
was he afforded the time allowed to respond to an
amended pleading by Rule 15. Id. at 466. The Court
concluded that, even though there was “sufficient identity between” the shareholder and the defendant, the
shareholder’s conduct was responsible for making the
case exceptional, and the shareholder had actual notice that the defendant was seeking attorney’s fees
from the plaintiff corporation, the district court was required to afford the shareholder an “actual opportunity

App. 69
to defend” against the claims against him. Id. at 470–
71.
The Iris Connex court distinguished Nelson because it found the due process concerns raised in Nelson sufficiently addressed. 235 F. Supp. 3d at 843 n.5.
Specifically, the Iris Connex court had sua sponte
joined the non-party, allowed additional time for briefing, and held a live hearing in which the former nonparty had an opportunity to testify before awarding
attorney’s fees and imposing personal liability. Id. at
839–40. Notably, all of this had been done after the
court granted summary judgment on the substantive
claims. Id. at 832–33.
In light of the foregoing, the Court concludes that
Ms. Jacobs must be given an opportunity to respond to
Alliance’s motion. See Nelson, 529 U.S. at 471–72.
CONCLUSION
Accordingly,
IT IS HEREBY ORDERED that Darlene Jacobs
is JOINED as a party to these proceedings. Alliance
shall serve a copy of this order, the instant motion, and
all responses to the motion on Ms. Jacobs, Ms. Jacobs
shall have 14 days from service to respond to Alliance’s
motion.
IT IS FURTHER ORDERED that no further
briefing shall be submitted without leave of the Court.

App. 70
New Orleans, Louisiana, this 30th day of August,
2019.
/s/ Carl L. Barbier
CARL J. BARBIER
UNITED STATES
DISTRICT JUDGE

App. 71
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 18-30759
-----------------------------------------------------------------------

D.C. Docket No. 2:17-CV-3679
ALLIANCE FOR GOOD GOVERNMENT,
Plaintiff - Appellee
v.
COALITION FOR BETTER GOVERNMENT,
Defendant - Appellant
Appeals from the United States District Court for the
Eastern District of Louisiana
Before HIGGINBOTHAM, SMITH, and HIGGINSON,
Circuit Judges.
JUDGMENT
(Filed Mar. 21, 2019)
This cause was considered on the record on appeal
and was argued by counsel.
It is ordered and adjudged that the judgment of
the District Court is affirmed in part, vacated in part
and remanded in part to the District Court for further proceedings in accordance with the opinion of
this Court.

App. 72
IT IS FURTHER ORDERED that each party bear
its own costs on appeal.

App. 73
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
---------------------------------------------

No. 18-30759
---------------------------------------------

ALLIANCE FOR GOOD GOVERNMENT,
Plaintiff - Appellee
v.
COALITION FOR BETTER GOVERNMENT,
Defendant - Appellant
-----------------------------------------------------------------------

Appeals from the United States District Court
for the Eastern District of Louisiana
-----------------------------------------------------------------------

(Filed Mar. 21, 2019)
Before HIGGINBOTHAM, SMITH, and HIGGINSON,
Circuit Judges.
PATRICK E. HIGGINBOTHAM, Circuit Judge:
The district court granted Alliance for Good Government summary judgment on its trademark infringement claim against Coalition for Better Government,
enjoined Coalition from the use of both its logo and its
trade name, and then awarded Alliance attorney’s fees
incurred in bringing the lawsuit. It did not abuse its
discretion in finding that Alliance is entitled to fees,
and so we affirm that portion of its order. Because we

App. 74
have since modified the district court’s injunction to
permit Coalition to use its trade name, however, we remand for the district court to reassess the amount of
fees.
I
Our earlier opinion describes this case’s background.1 In short, Alliance and Coalition are both nonprofit organizations that endorse political candidates
in New Orleans. Alliance began using a logo featuring
a bird with wings outstretched in the late 1960s; Coalition began using a similar logo in the 1980s or 1990s,
then changed its logo in 2008 to be virtually identical
to Alliance’s.2 Below are the Alliance and post-2008 Coalition logos:

Alliance sued Coalition for trademark infringement in Louisiana court in 2008, then voluntarily dismissed its suit, believing Coalition had ceased using the
logo to endorse candidates.3 When Coalition resumed
1

See All. for Good Gov’t v. Coal. for Better Gov’t (Alliance I ),
901 F.3d 498 (5th Cir. 2018).
2
Id. at 503. In 2013, Alliance registered both the trade name
“Alliance for Good Government” and its logo with the U.S. Patent
and Trademark Office. Id.
3
See id. at 504.

App. 75
the use of its logo in 2016, Alliance sued Coalition in
the Eastern District of Louisiana, claiming federal and
state trademark infringement and unfair trade practices.4 It argued that both Coalition’s “word mark”—its
trade name, “Coalition for Better Government”—and
its “composite mark”—its logo—infringed Alliance’s
marks. The district court granted Alliance’s motion for
partial summary judgment, enjoining Coalition from
using both its name and logo.5 Alliance voluntarily dismissed its other claims.
Coalition appealed the summary judgment. While
the appeal was pending, Alliance moved for attorney’s
fees under the Lanham Act. The district court awarded
Alliance everything it requested—$68,237.25 in fees,
encompassing fees already incurred and projected fees
from replying to Coalition’s opposition to the fees motion. Coalition separately appealed the fee award.6

4

See id.
The parties had cross-moved for summary judgment: Coalition argued that Alliance’s suit was barred by laches, while Alliance argued that it was entitled to partial summary judgment
on its federal trademark infringement claim. While Coalition had
initially asserted twelve affirmative defenses in its Answer, its
motion for summary judgment and opposition to Alliance’s motion
focused on laches. Coalition also averred that there was no likelihood of confusion between the marks as a matter of law and that
Alliance had fraudulently obtained its federal trademark registration. Along with granting Alliance’s motion for partial summary judgment, the district court granted Alliance’s separate
motion to dismiss Coalition’s counterclaims, including the fraudulent-registration claim.
6
The notice of appeal of the fee order was filed approximately two weeks before oral argument in the summary judgment
5

App. 76
During briefing in this fees appeal, we affirmed Alliance’s entitlement to summary judgment on its claim
that Coalition’s logo infringed its composite mark.7 We
concluded that based on the summary judgment record, however, Coalition’s trade name did not by itself
generate a likelihood of confusion with Alliance’s “differently-worded” trade name.8 We therefore modified
the district court’s injunction to permit Coalition to
continue using its name.
II
The Lanham Act authorizes the award of “reasonable attorney fees to the prevailing party” in “exceptional cases.”9 In Octane Fitness, LLC v. ICON Health
& Fitness, Inc., the Supreme Court established that an
“exceptional” case meriting fees under the Patent Act
does not require a prevailing party to demonstrate bad
faith.10 Rather, a party seeking fees under the Patent
Act must demonstrate that the case “stands out from
others with respect to the substantive strength of a
appeal, and we denied Alliance’s emergency motion to consolidate
the appeals, explaining that either party could seek a stay of the
fees appeal if it believed that unnecessary resources would be expended in the fees appeal during the pendency of the summary
judgment appeal.
7
Alliance I, 901 F.3d at 513.
8
Id. at 513–14. We observed that our decision was based
purely on the summary judgment record and was without prejudice to Alliance’s opposition to Coalition’s pending application to
register its name with the USPTO. Id. at 513 n.15.
9
15 U.S.C. § 1117(a).
10
572 U.S. 545, 555 (2014).

App. 77
party’s litigating position (considering both the governing law and the facts of the case) or the unreasonable manner in which the case was litigated.”11
Recognizing that the Lanham Act’s fee-shifting provision is identical to the Patent Act’s, we have extended
Octane Fitness’s disjunctive standard for “exceptional”
cases to claims for fees brought under the Lanham
Act.12
Before Octane Fitness, we “review[ed] the district
court’s determination as to whether a case is ‘exceptional’ under § 1117(a) for clear error, but . . . review[ed] the . . . ultimate decision [on] attorney’s fees
for an abuse of discretion.”13 The same day Octane Fitness was decided, the Supreme Court recognized that
because Octane Fitness commits the determination
about whether a case is “exceptional” to the district
court’s discretion, “an appellate court should review all
aspects of a district court’s [fees determination under
the Patent Act] for abuse of discretion.”14 Since the
Lanham Act’s fee-shifting provision is identical to the
Patent Act’s—as we recognized in Baker—we conclude
that this same standard of review applies to district
court fee determinations under the Lanham Act. We
will therefore review all aspects of the district court’s
11

Id. at 554.
Baker v. DeShong, 821 F.3d 620, 622–25 (5th Cir. 2016);
see also Octane Fitness, 572 U.S. at 554 (observing that the two
provisions are identical).
13
E.g., Nat’l Bus. Forms & Printing, Inc. v. Ford Motor Co.,
671 F.3d 526, 537 (5th Cir. 2012).
14
Highmark, Inc. v. Allcare Health Mgmt. Sys., Inc., 572 U.S.
559, 561 (2014) (emphasis added).
12

App. 78
fee determination, including its conclusion that this
was an “exceptional” case, for abuse of discretion.15
III
As we have explained, a fee award may be warranted either where the prevailing party stood out in
terms of the strength of its litigating position or where
the non-prevailing party litigated the case in an “unreasonable manner.” The district court found that both
grounds justified an award of fees to Alliance. We conclude that with respect to Alliance’s claim that Coalition’s logo infringed Alliance’s composite mark, the
district court did not abuse its discretion in concluding
that this was an “exceptional” case warranting fees.16
A
The district court first found that the case stood
out due to the strength of Alliance’s litigating position:
15

Two circuits have already extended Highmark’s articulation of the proper standard of review to the review of fee awards
under the Lanham Act. See Romag Fasteners, Inc. v. Fossil, Inc.,
866 F.3d 1330, 1334 (Fed. Cir. 2017); SunEarth, Inc. v. Sun Earth
Solar Power Co., Ltd., 839 F.3d 1179, 1181 (9th Cir. 2016) (en banc).
16
Coalition does not directly contest that Alliance is a prevailing party, nor can it. We have recognized that in the Lanham
Act context, a prevailing party is “a party in whose favor judgment
is rendered” or “one who has been awarded some relief by the court.”
Kiva Kitchen & Bath Inc. v. Capital Distrib., Inc., 319 F. App’x 316,
322 (5th Cir. 2009). Alliance has received a judgment in its favor
and relief in the form of an injunction prohibiting Coalition from
using its logo, and therefore is a prevailing party potentially entitled to fees. We will later address the relevance of the fact that
Alliance did not prevail on all aspects of the relief it sought.

App. 79
Alliance adopted its logo at least 15 years before Coalition began using its similar logo; Alliance’s composite
mark was strong; the marks were very similar; and
both parties provided the same “product,” used the
same advertising channels, and targeted the same
“customers.” In sum, “[t]he likelihood of confusion
[was] so great that it would appear that customer confusion was Coalition’s motivation for adopting the Coalition Mark.” Further, Coalition presented meritless
defenses at the summary judgment stage: a lathes argument that was not supported by “any credible evidence,” as well as the bare assertion that the composite
marks were different because one depicted an eagle
while the other depicted a hawk.
We find no abuse of discretion in the district
court’s conclusion that Alliance had an exceptionally
strong infringement claim. Indeed, many of the district
court’s observations also underpinned our decision to
affirm the grant of summary judgment to Alliance.17
While Coalition attempts to repackage several of the
defenses it raised to summary judgment as reasons
why this case is not “exceptional” under the Lanham
Act, we have already concluded that those arguments

17

For example, we were not just struck by the fact that Alliance and Coalition “have the same logo”—we also flatly rejected
Coalition’s attempt to “distinguish the two logos[ ] not by appearance, design, color, or font[,] but by the birds’ species.” See Alliance
I, 901 F.3d at 511. Ultimately, we “agree[d] with the district court:
the birds are identical. Whether that bird is a haliaeetus leucocephalus (bald eagle), a buteo jamaicensis (red-tailed hawk), or
some other bird, we need not determine.” Id. at 512.

App. 80
were either waived in the district court or plainly meritless or both.18
B
The district court also determined that this case
was exceptional because Coalition litigated it in an
unreasonable manner. Coalition behaved unreasonably at several points during the litigation, filing an unsupported laches defense;19 a “counterclaim without
any actionable conduct”; and a meritless motion to
dismiss that was rendered moot by a summary judgment motion filed two weeks later.20 The district court
also found that Coalition’s behavior during discovery
was unreasonable, especially its refusal to postpone

18

See id. at 505–06 (finding that Coalition waived its arguments about political speech and non-engagement in commerce
by failing to press them before the district court); id. at 507 n.9
(finding that Coalition’s counterclaim that Alliance fraudulently
obtained its trademark registration was both waived and “easily
resolved”); id. at 512–13 (agreeing with the district court that
“while there was no evidence of ‘actual intent to infringe’. . . . [the
only plausible explanation for the marks’ similarity was] Coalition’s intent to benefit from Alliance’s pre-existing reputation”).
19
Specifically, Coalition was unable to point to any evidence
beyond a bare-bones affidavit to show that Coalition used its logo
to endorse candidates between 2010 and 2016—a critical aspect of
its laches defense.
20
While Coalition points out that Alliance also filed a motion
to dismiss alongside its motion for summary judgment, it fails to
acknowledge the difference in context. Alliance filed a motion to
dismiss Coalition’s counterclaims for failure to state a claim after
moving for partial summary judgment on its own federal trademark infringement claim.

App. 81
depositions after the district court ruled on the parties’
cross-motions for summary judgment.
Coalition urges that it was the unwilling defendant in a lawsuit initiated by Alliance. To the extent
that Coalition argues that only prevailing defendants
should be awarded fees under the Lanham Act, we
cannot agree.21 The district court did not abuse its discretion in concluding that taken as a whole, Coalition’s
litigation conduct rendered this case exceptional.
C
We pause to address Coalition’s argument that as
a nonprofit entity engaged in political speech, its First
Amendment rights are threatened by the imposition of
attorney’s fees. This is a variant of Coalition’s earlier
argument, made during the summary judgment appeal, that the First Amendment protected it from liability for trademark infringement. We declined to
address this argument on the summary judgment appeal because “Coalition never developed the argument beyond [a cursory statement] and, by the time
of the summary judgment proceedings, the issue had

21

This suggestion is both waived by Coalition’s failure to argue it in its opening brief and contradicted by a wealth of cases
granting fees to prevailing Lanham Act cases. See “Recovery of
Attorney’s Fees—Award to a Prevailing Plaintiff,” 5 McCarthy on
Trademarks & Unfair Competition § 30:100 (5th ed.) (collecting
cases awarding fees to prevailing plaintiffs, including many decided even before Octane Fitness clarified that a prevailing plaintiff did not need to show willful infringement to recover fees under
the Patent Act).

App. 82
vanished.”22 Ultimately, we observed, “[t]he interplay
between the Lanham Act and the First Amendment’s
political and commercial speech doctrines raises a
thicket of issues we decline to enter when the issues
were not preserved or ruled on below.”23 Here too, Coalition fleetingly raises the slightly different argument
that a fees award might interfere with its First Amendment rights, but it did not so contend before the district
court in its opposition to attorney’s fees, nor did it present a fully developed argument in its briefing on this
appeal. We will not reach the issue.
IV
We have concluded that the district court did not
abuse its discretion in finding Alliance to be entitled to
attorney’s fees. We agree with Coalition, however, that
the district court must reassess their amount given our
decision to modify the district court’s injunction to allow Coalition to continue the use of its trade name.
When a party advances both Lanham Act and nonLanham Act claims, a district court should make efforts
to award fees only for successful Lanham Act claims.24
This reflects “the background rule in America . . . [that]
the prevailing party usually cannot recover fees absent statutory authority.”25 The same apportionment
principle should apply “when in one lawsuit some
22

Alliance I, 901 F.3d at 506.
Id. at 506 n.8.
24
Procter & Gamble Co. v. Amway Corp., 280 F.3d 519, 527
(5th Cir. 2002).
25
Id.
23

App. 83
Lanham Act claims qualify for an attorney’s fee award
and other Lanham Act claims do not.”26
Here, Alliance prevailed on its claim that Coalition’s logo infringed Alliance’s composite mark—and,
as we have explained, the district court did not abuse
its discretion in holding that Alliance was entitled to
fees on this claim. Alliance did not prevail, however, in
its effort to enjoin Coalition from using the “Coalition
for Better Government” designation.27 Further, Alliance voluntarily dismissed its other counts after prevailing on the main trademark infringement claim;
the district court’s fee award did not distinguish between time spent on the infringement claim and time
Alliance’s attorneys spent—however limited—on these
other counts. Alliance is only entitled to fees for work
its attorneys performed on its claim that Coalition’s
logo infringed its composite mark.
While Alliance’s composite-mark claim may be intertwined with its other claims to some extent,28 “the
26

See “Recovery of Attorney’s Fees—Apportionment Among
Claims,” 5 McCarthy on Trademarks & Unfair Competition § 30:103;
see also Cairns v. Franklin Mint Co., 292 F.3d 1139, 1157–58 (9th
Cir. 2002) (affirming a twenty-six-percent reduction in fees where
the losing party brought some Lanham Act claims that merited
fees alongside other claims that, although unsuccessful, were not
groundless).
27
While Alliance frequently referred to the marks collectively and addressed federal trademark infringement of both
marks in a single count of its complaint, we analyzed the composite and word marks separately for the purposes of summary
judgment.
28
Cf. Procter & Gamble, 280 F.3d at 527 (explaining that
where a party has brought both Lanham Act and non-Lanham

App. 84
impossibility of making an exact apportionment does
not relieve the district court of its duty to make some
attempt to adjust the fee award in an effort to reflect
an apportionment.”29 We remand to the able district
court to account for billed time for claims on which Alliance did not prevail, and to adjust the fee award accordingly.
V
We affirm the district court’s determination that
Alliance is entitled to attorney’s fees, vacate the
amount of fees awarded, and remand for the district
court to assess the amount of the award of fees in light
of this opinion.30
Affirmed in part and remanded in part.

Act claims, “[a] court should permit recovery for work on non-Lanham Act claims only if ‘the Lanham Act and non-Lanham Act
claims are so intertwined that it is impossible to differentiate between work done on claims’ ” (quoting Gracie v. Gracie, 217 F.3d
1060, 1069 (9th Cir. 2000)).
29
Gracie, 217 F.3d at 1070.
30
We do not address Coalition’s argument that the district
court erred in denying its motion to strike, as Coalition failed to
identify this as one of the issues presented for review and did not
present legal authority to support its contention. See, e.g., Procter
& Gamble Co. v. Amway Corp. 376 F.3d 496, 499 n.1 (5th Cir.
2004) (“Failure adequately to brief an issue on appeal constitutes
waiver of that argument.”).

App. 85
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------

No. 17-30859
-----------------------------------------------------------

D.C. Docket No. 2:17-CV-3679
ALLIANCE FOR GOOD GOVERNMENT,
Plaintiff - Appellee
v.
COALITION FOR BETTER GOVERNMENT,
Defendant - Appellant
Appeal from the United States District Court for the
Eastern District of Louisiana
Before DAVIS, HAYNES, and DUNCAN, Circuit Judges.
JUDGMENT
(Filed Aug. 22, 2018)
This cause was considered on the record on appeal
and was argued by counsel.
It is ordered and adjudged that the judgment of
the District Court is affirmed as modified.
IT IS FURTHER ORDERED that defendant-appellant pay to plaintiff-appellee the costs on appeal to
be taxed by the Clerk of this Court.

App. 86
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------

No. 17-30859
-----------------------------------------------------------

ALLIANCE FOR GOOD GOVERNMENT,
Plaintiff - Appellee
v.
COALITION FOR BETTER GOVERNMENT,
Defendant - Appellant
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Eastern District of Louisiana
-----------------------------------------------------------------------

(Filed Aug. 22, 2018)
Before DAVIS, HAYNES, and DUNCAN, Circuit Judges.
STUART KYLE DUNCAN, Circuit Judge:
This federal trademark infringement action involves a dispute between two civic organizations over
their logos:

The older organization, Alliance for Good Government,
developed its logo in the late 1960s and has used it for

App. 87
fifty years in advertisements and sample ballots to promote political candidates in New Orleans and throughout Louisiana. The younger organization, Coalition for
Better Government, developed its logo more recently
(in the early 1980s or 1990s) and has also used it in
sample ballots to promote political candidates in New
Orleans. While the groups have locked talons before,
the present appeal arises out of Alliance’s 2017 lawsuit
seeking to enjoin Coalition’s use of its logo for federal
trademark infringement under the Lanham Act. The
district court granted Alliance summary judgment,
finding that Coalition’s logo infringed Alliance’s marks
as a matter of law, and enjoined Coalition from using
both its name and logo in political advertisements.
Coalition appeals that ruling.
On appeal, Coalition raises broad threshold questions concerning the applicability of the Lanham Act to
what it characterizes as its political, noncommercial
speech. We decline to address those questions, because
Coalition failed to properly raise them below and the
district court never reached them. Coalition also attacks the summary judgment, claiming that fact issues
remain as to whether Alliance’s marks are valid and
whether Coalition’s logo would likely create confusion
with Alliance’s. On the latter point, Coalition’s most curious argument—urged below and renewed on appeal—is that the logos are different because its logo
features a hawk while Alliance’s features an eagle. We
conclude the district court did not err in deciding the
birds are identical.

App. 88
Reviewing the summary judgment ruling de novo,
we conclude that the evidence establishes without dispute that Alliance’s logo is a valid composite mark and
that the use of Coalition’s logo infringes Alliance’s composite mark as a matter of law. We modify the district
court’s injunction in one respect, however. By its terms,
the injunction restrains Coalition from using its name
as well as its logo. We find that aspect of the injunction
overbroad and therefore modify it to restrain Coalition’s use of its logo only.
Accordingly, we AFFIRM the district court’s summary judgment ruling, but MODIFY the injunction to
restrain only the use of Coalition’s logo.
I.
A.
Alliance for Good Government (“Alliance”) is a
non-profit civic organization formed in 1967 to promote
“honest and open government.” Alliance’s founding
chapter is in Orleans Parish, but it operates both in
New Orleans and throughout Louisiana. The organization hosts political forums, endorses candidates, and
participates in campaigns through advertising. It also
distributes and publishes sample ballots featuring endorsed candidates.
Alliance ballots dating back to 1969 feature the
same logo it continues to use today—a design with the
organization’s name in blue type on a rectangular
white background arranged around a stylized bird.

App. 89
Alliance considers its bird to be an eagle. In 2013, Alliance registered its service marks1 with the United
States Patent and Trademark Office (“PTO”): the word
mark “Alliance for Good Government,” and the composite mark consisting of the entire logo.2
Coalition for Better Government (“Coalition”) is a
non-profit civic organization formed in New Orleans
in 1982 to endorse political candidates. Coalition operates mainly in New Orleans and promotes preferred
candidates by advertising sample ballots in New Orleans newspapers. Coalition and Alliance sometimes
endorse the same, or opposing, candidates: candidates
1

A “service mark” means “any word, name, symbol, or device, or any combination thereof used by a person . . . to identify
and distinguish the services of one person . . . from the services of
others and to indicate the source of the services, even if that
source is unknown.” 15 U.S.C. § 1127. A “word mark” refers to
mark comprised only of words, while a “design mark” refers to a
mark comprised of symbols. See, e.g., Nola Spice Designs, LLC v.
Haydel Enters., Inc., 783 F.3d 527, 537, 540 (5th Cir. 2015). A
“composite mark” refers to a mark “containing both words and
symbols in a distinct manner.” Igloo Prods. Corp. v. Brantex, Inc.,
202 F.3d 814, 815 (5th Cir. 2000); see also 4 MCCARTHY ON TRADEMARKS AND UNFAIR COMPETITION § 23:47 (5th ed. 2018) (“McCarthy”) (discussing comparison of “composite marks involving both
designs and words”).
2
Specifically, Alliance registered its word mark as No.
4,330,957 on May 7, 2013. This mark is for the name “Alliance for
Good Government” in “standard characters without claim to any
particular font, style, size, or color.” Alliance registered its composite mark as No. 4,349,156 on June 11, 2013. This mark is
described as follows: “[A] bold line drawing of an eagle with outstretched wings with head facing left. Above the image is the word
‘Alliance’ and below the eagle are the words ‘good government’
and on the next line is ‘since 1967.’ ”

App. 90
endorsed by each have run in the same election at least
twice.
Coalition also has a logo, which it uses in sample
ballots dating back to at least 1992 (possibly the early
1980s). Coalition’s logo features its name in white type
on a rectangular blue background arranged around a
stylized bird. Coalition’s bird appears identical to Alliance’s, but Coalition believes the birds are different
types: Coalition considers its bird to be a hawk, not an
eagle.3
Because pictures are worth a thousand words,
here are the logos again:

B.
Alliance first sued Coalition for trademark infringement in 2008 in Louisiana state court. After skirmishing over venue, Alliance moved to dismiss its suit
when it believed Coalition had stopped activity and
ceased use of the Coalition logo. But in 2016 Coalition
3

The record reflects that Coalition has used at least two
slightly different bird designs in its logos. The bird on Coalition’s
1992 ballot looks modestly different from the bird on its post-2008
ballots. But because Alliance challenges the use of Coalition’s logo
only from 2008 forward, we need not address whether Coalition’s
1992 logo infringed Alliance’s mark.

App. 91
resumed using its logo to endorse political candidates.
Indeed, in the primary elections for Louisiana district
judges on March 25, 2017, Alliance and Coalition endorsed opposing candidates. That same month Coalition filed two applications with the PTO to register its
name and logo, which Alliance opposed.4
In April 2017, Alliance sued Coalition in federal
court claiming federal trademark infringement under
15 U.S.C. § 1114, as well as various other federal and
state trademark and unfair trade practice claims. Coalition counterclaimed for, inter alia, fraudulent trademark procurement under 15 U.S.C. § 1120. In August
2017 Coalition moved for summary judgment arguing
Alliance’s suit was barred by laches, and that same
month Alliance moved for partial summary judgment
solely on federal trademark infringement. The district
court held a hearing on the cross-motions. Ruling from
the bench, the court denied Coalition’s motion for
summary judgment on laches and granted Alliance’s
motion for partial summary judgment on federal
trademark infringement. Alliance voluntarily dismissed its remaining claims. Subsequently, the district
4

Coalition’s word mark application, dated March 17, 2017,
seeks to register the name “Coalition for Better Government” in
“standard characters, without claim to any particular font style,
size, or color.” Coalition’s composite mark application, also dated
March 17, 2017, seeks to register its logo, described as “white letters spelling the words ‘Coalition For Better Government’ with a
drawing of a hawk.” Attached to the application are Coalition’s
present logo (the subject of this suit) and the 1992 version. The
parties inform us that the PTO has stayed Alliance’s opposition
proceeding pending the outcome of this suit.

App. 92
court issued an order permanently enjoining Coalition
from using both its name and logo. Coalition timely
appealed the district court’s trademark infringement
ruling and injunction.5
II.
We review a grant of summary judgment de novo,
applying the same standard as the district court.
Smith v. Reg’l Transit Auth., 827 F.3d 412, 417 (5th Cir.
2016). Summary judgment is proper where the pleadings and record materials show no genuine dispute as
to any material fact, entitling the movant to judgment
as a matter of law. FED. R. CIV. P. 56(a). If the moving
party initially shows the non-movant’s case lacks support, “the non-movant must come forward with ‘specific
facts’ showing a genuine factual issue for trial.” TIG
Ins. Co. v. Sedgwick James, 276 F.3d 754, 759 (5th Cir.
2002). We must view the evidence in the light most favorable to the non-moving party, drawing all justifiable
inferences in the non-movant’s favor. Envtl. Conservation Org. v. City of Dallas, 529 F.3d 519, 524 (5th Cir.
2008).
III.
To prevail on a claim of federal trademark infringement under the Lanham Act, 15 U.S.C. § 1051
et seq., a plaintiff must show (1) ownership of a legally
5

Coalition raises no argument on appeal concerning the district court’s laches ruling, and consequently the issue is not before
us.

App. 93
protectable mark and (2) a likelihood of confusion created by an infringing mark. Nola Spice Designs, LLC v.
Haydel Enters., Inc., 783 F.3d 527, 536 (5th Cir. 2015);
Am. Rice, Inc. v. Producers Rice Mill, Inc., 518 F.3d 321,
329 (5th Cir. 2008).6 On appeal, Coalition first argues
that the Lanham Act cannot apply to its marks because Coalition engages only in “political speech” and
does not engage in “commerce or the sale of goods.” Coalition failed to raise these arguments below, however,
and we decline to address them. Second, Coalition attacks the district court’s summary judgment grant,
arguing that the court erred in ruling that Alliance
had a valid mark and that Alliance proved Coalition’s
marks created a likelihood of confusion. We affirm
the district court’s ruling and injunction as to Coalition’s logo but modify the injunction as to Coalition’s
name.
A.
As a threshold matter, Coalition argues that the
Lanham Act cannot apply to its marks because Coalition engages only in “political speech” and is a nonprofit entity not “engaged in commerce or the sale
of goods.” Coalition failed to properly raise these
6

The Lanham Act provides in relevant part that a person
“shall be liable in a civil action” by the registrant of a mark if the
person, without the registrant’s consent, “use[s] in commerce any
reproduction, counterfeit, copy, or colorable imitation of a registered mark in connection with the sale, offering for sale, distribution, or advertising of any goods or services on or in connection
with which such use is likely to cause confusion, or to cause mistake, or to deceive[.]” 15 U.S.C. § 1114(1)(a).

App. 94
arguments in the district court. To preserve either issue for appeal, Coalition had to “ ‘press and not merely
intimate the argument during the proceedings before
the district court . . . to such a degree that the district
court ha[d] an opportunity to rule on it.’ ” Keelan v.
Majesco Software, Inc., 407 F.3d 332, 340 (5th Cir.
2005) (quoting N.Y. Life Ins. Co. v. Brown, 84 F.3d 137,
141 n.4 (5th Cir. 1996)) (brackets added). Coalition
did not do so and we therefore decline to reach the
arguments. See, e.g., Reyes v. Manor Indep. Sch. Dist.,
850 F.3d 251 (5th Cir. 2017) (“We do not consider issues brought for the first time on appeal.”).
During summary judgment proceedings, Coalition
(1) raised the defense of laches, (2) urged the invalidity
of Alliance’s marks due to fraud and lack of distinctiveness, and (3) argued that fact issues precluded summary judgment on likelihood of confusion. Nowhere
in those proceedings did Coalition brief or articulate—
much less “press”—the argument that its political or
non-profit nature insulates it from Alliance’s trademark
infringement claims. Because Coalition said nothing
about those issues, the district court’s ruling understandably did not address them. “‘If a party fails to
assert a legal reason why summary judgment should
not be granted, that ground is waived and cannot be
considered or raised on appeal.’ ” Keelan, 407 F.3d at
339-40 (quoting Keenan v. Tejeda, 290 F.3d 252, 262
(5th Cir. 2002)).
To be sure, Coalition’s answer to Alliance’s complaint raised—among thirteen affirmative defenses—the

App. 95
defense that “its actions constitute purely noncommercial and political free speech.”7 But Coalition
never developed the argument beyond that cursory
statement and, by the time of the summary judgment
proceedings, the issue had vanished. The argument is
thus waived. See, e.g., Keenan, 290 F.3d at 262 (explaining that “ ‘[e]ven an issue raised in the complaint
but ignored at summary judgment may be deemed
waived’ ”) (quoting Grenier v. Cyanamid Plastics, Inc.,
70 F.3d 667, 678 (1st Cir. 1995)); see also Frank C.
Bailey Enters., Inc. v. Cargill, Inc., 582 F.2d 333, 334
(5th Cir. 1978) (holding that “an appellate court, in reviewing a summary judgment order, can only consider
those matters presented to the district court”).8
7

Coalition’s motion to dismiss also stated it engages in “political free speech,” without ever making, briefing, or otherwise
developing a distinct First Amendment claim.
8
The interplay between the Lanham Act and the First
Amendment’s political and commercial speech doctrines raises a
thicket of issues we decline to enter when the issues were not preserved or ruled on below. See, e.g., Radiance Found., Inc. v.
NAACP, 786 F.3d 316 (4th Cir. 2015) (observing “[a]t least five of
our sister circuits”—the D.C., 10th, 9th, 6th, and 8th—“have interpreted [‘in connection with the sale . . . or advertising of any
goods or services’ in 15 U.S.C. § 1114(1)(a) of the Lanham Act] as
protecting from liability all noncommercial uses of marks”); id. at
323-24 (adopting commercial speech doctrine as “guidance” in applying Lanham Act’s “in connection” requirement); but see United
We Stand Am., Inc. v. United We Stand Am. N.Y., Inc., 128 F.3d
86, 90 (2nd Cir. 1997) (observing “[t]he Lanham Act has . . . been
applied to defendants furnishing a wide variety of non-commercial public and civic benefits” and concluding that “[a] political organization that . . . endorses candidates under a trade name”
satisfies the “in connection” requirement). This Court does not
appear to have spoken directly on this debate but has held that

App. 96
B.
We proceed to Alliance’s federal trademark infringement claim. The district court granted Alliance
summary judgment, finding the evidence undisputed
that Alliance’s marks are legally protectable and that
Coalition’s use of its marks creates a likelihood of confusion with Alliance’s. Unless otherwise indicated, the
following discussion in parts B.1 and B.2 focuses on
Alliance and Coalition’s logos. We separately address
the district court’s injunction as to Coalition’s name in
part C, infra.
1.
On appeal, Coalition disputes the district court’s
conclusion that Alliance’s composite mark is legally
protectable. “To be protectable, a mark must be distinctive, either inherently or by achieving secondary meaning in the mind of the public.” Am. Rice, 518 F.3d at 329
(citations omitted). We reject Coalition’s arguments.
First, Coalition claims summary judgment was
improper on this point because fact issues exist as to
a different section of the Lanham Act, 15 U.S.C. § 1125(a), encompasses only “commercial advertising or promotion.” Seven-Up Co.
v. Coca-Cola Co., 86 F.3d 1379, 1382-83 (5th Cir. 1996); see also
TMI Inc. v. Maxwell, 368 F.3d 433, 436 n.2 (5th Cir. 2004) (stating
that “[t]his Court has previously determined that § 43(a) of the
Lanham Act, 15 U.S.C. § 1125(a)(1), which addresses false and
misleading descriptions, only applies to commercial speech”) (citing Procter & Gamble Co. v. Amway Corp., 242 F.3d 539, 547 (5th
Cir. 2001), abrogated on other grounds by Lexmark Int’l, Inc. v.
Static Control Components, Inc., 572 U.S. 118, 134-37 (2014)).

App. 97
whether Alliance obtained its mark “by a false or
fraudulent declaration” under 15 U.S.C. § 1120. Even
assuming this argument is pertinent here,9 it fails.
Coalition’s only evidence is Alliance’s 2012 PTO declaration stating that, to the best of Alliance’s knowledge,
“no other person has the right to use such mark in commerce either in the identical form thereof or in such
near resemblance thereto as to be likely . . . to cause
confusion[.]” See 15 U.S.C. § 1051(b)(3)(D) (requiring
this verification with trademark application). Coalition suggests this declaration was fraudulent because,
in 2012, Alliance was “fully aware” Coalition was using
its own mark. But Coalition misreads the declaration,
which states only that Alliance believed in 2012 that
no one else had the “right” to use its mark or any confusingly-similar mark. The record is undisputed that
Alliance believed it had the exclusive right to use its
marks in 2012—otherwise, why would Alliance have
9

Coalition points to no authority suggesting that whether a
mark was fraudulently obtained under 15 U.S.C. § 1120 is relevant to whether a mark is “distinctive,” the touchstone for validity
in a section 1114 infringement claim. See Nola Spice, 783 F.3d at
537 (citing Wal-Mart Stores, Inc. v. Samara Bros., 529 U.S. 205,
210-11 (2000)). Even if it were, however, we note that Coalition
raised fraudulent procurement under § 1120 in a separate counterclaim that was dismissed by the district court. Coalition’s appellate briefing neither mentions this ruling nor explains why it
was incorrect, thus abandoning the issue. Yohey v. Collins, 985
F.2d 222, 224-25 (5th Cir. 1993); FED. R. APP. P. 28(a)(4). Consequently, we doubt that Coalition’s fraud claim is pertinent to the
distinctiveness of Alliance’s mark, and we also doubt the issue is
properly before us. Nonetheless, we reach the issue because Coalition raised it in opposing summary judgment and because it is
easily resolved.

App. 98
sued in 2008 to stop Coalition from using its marks?
The 2012 declaration does not remotely create a fact
issue as to whether Alliance obtained its mark by
fraud. See, e.g., Meineke Disc. Muffler v. Jaynes, 999
F.2d 120, 126 (5th Cir. 1993) (explaining that a fraudulent registration claim requires proof “by clear and
convincing evidence that the applicant made false
statements with the intent to deceive the licensing
authorities”).
Second, Coalition argues that Alliance offered no
evidence that its mark was distinctive, and therefore
legally protectable, and that fact issues persist on that
issue. We disagree. Among other evidence, Alliance offered undisputed evidence that it registered both of its
marks with the PTO in 2013—its word mark on May
7, 2013, and its composite mark on June 11, 2013. The
registration of Alliance’s composite mark with the PTO
“is prima facie evidence that the mark[ ] [is] inherently
distinctive.” Nola Spice, 783 F.3d at 537 (citing Amazing Spaces, Inc. v. Metro Mini Storage, 608 F.3d 225,
237 (5th Cir. 2010); 15 U.S.C. § 1057(b)).10 To be sure,
10

Unlike its composite mark, Alliance’s word mark was registered under section 2(f ) of the Lanham Act, which allows registration based on evidence that the mark has “become distinctive”
based on “proof of substantially exclusive and continuous use
thereof as a mark by the applicant in commerce for five years
before the date on which the claim of distinctiveness is made.” 15
U.S.C. § 1052(f ); see also, e.g., Lovely Skin, Inc. v. Ishtar Skin
Care Prods., Inc., 745 F.3d 877, 882 (8th Cir. 2014). “[T]he presumption of validity that attaches to a § 2(f ) registration includes
a presumption that the registered mark has acquired distinctiveness, or secondary meaning, at the time of its registration.” Id. at
882-83 (citations omitted). While this presumption differs from

App. 99
Coalition could have offered evidence “to overcome the
presumption of inherent distinctiveness that accompanies [Alliance’s] registration[.]” Nola Spice, 783 F.3d
at 542 (citing Amazing Spaces, 608 F.3d at 234). But
Coalition offered no evidence concerning the inherent
distinctiveness of Alliance’s composite mark; rather,
it offered evidence concerning Alliance’s word mark
only (specifically, evidence of similarly-named organizations outside Louisiana). Such evidence has nothing
to do with the central inquiry governing the inherent
distinctiveness of Alliance’s composite mark—namely,
whether the mark’s “design, shape or combination of
elements is so unique, unusual or unexpected in this
market that one can assume without proof that it will
automatically be perceived by customers as an indicator of [the] origin” of Alliance’s services, and whether
Alliance’s logo “was capable of creating a commercial
impression distinct from the accompanying words.”
Nola Spice, 783 F.3d at 541 (quoting Amazing Spaces,
608 F.3d at 232, 243-44) (internal quotation marks
omitted); see also Seabrook Foods, Inc. v. Bar-Well
Foods, Ltd., 568 F.2d 1342, 1344 (C.C.P.A. 1977) (setting forth analysis governing inherent distinctiveness

the presumption of inherent distinctiveness enjoyed by Alliance’s
composite mark, see, e.g., Nola Spice, 783 F.3d at 537 n.1, here we
consider only Alliance’s composite mark. See, e.g., Igloo Prods.
Corp., 202 F.3d at 817 (explaining that the prima facie presumption arising from a composite mark’s registration “pertains to the
whole mark . . . rather than to any individual portion of the
mark”) (citing In re Nat’l Data Corp., 753 F.2d 1056, 1059 (Fed.
Cir. 1985); In re Bose Corp., 772 F.2d 866, 873 (Fed. Cir. 1985))
(emphasis in original).

App. 100
of design marks).11 Consequently, Coalition failed to
rebut the presumption that Alliance’s composite mark
was inherently distinctive and therefore legally protectable. The district court properly granted summary
judgment on this point.
2.
Coalition also contests the summary judgment
ruling that Coalition’s use of its logo created a likelihood of confusion with Alliance’s composite mark.
To prove infringement, a plaintiff “must show that
the defendant’s use of the mark ‘creates a likelihood of
confusion in the minds of potential customers as to the
“source, affiliation, or sponsorship” ’ ” of the product or
service at issue. Bd. of Supervisors for La. State Univ.
Agric. & Mech. College v. Smack Apparel Co., 550 F.3d
465, 478 (5th Cir. 2008) (quoting Westchester Media v.
11

Alliance also argues on appeal that the unrebutted evidence showed its marks have achieved secondary meaning—such
as evidence that Alliance has continuously used its marks for
nearly fifty years in connection with hundreds of Louisiana
elections in a variety of advertising media. See also, e.g., Alliance
for Good Gov’t, Inc. v. St. Bernard Alliance for Good Gov’t, Inc.,
No. 96-CA-0635, at *6 (La. App. 4th Cir. 12/18/96); 686 So.2d 83,
86 (holding that, for purposes of Louisiana trademark law, the
name “Alliance for Good Government” has acquired secondary
meeting “[g]iven the length of time that [Alliance] has been in
existence” and given that “there is obviously a great amount of
name recognition and/or goodwill associated with the name ‘Alliance for Good Government’ ”). We need not reach the issue of secondary meaning, however, given the unrebutted presumption of
distinctiveness attaching to Alliance’s mark by virtue of its PTO
registration.

App. 101
PRL USA Holdings, Inc., 214 F.3d 658, 663 (5th Cir.
2000)). The required showing is a “probability” of confusion, not merely a “possibility.” Xtreme Lashes v.
Xtended Beauty, 576 F.3d 221, 226 (5th Cir. 2009) (citing Smack Apparel, 550 F.3d at 478). This Circuit considers the following eight nonexhaustive “digits” to
assess likelihood of confusion:
(1) strength of the mark; (2) mark similarity;
(3) product or service similarity; (4) outlet
and purchaser identity; (5) advertising media
identity; (6) defendant’s intent; (7) actual confusion; and (8) care exercised by potential purchasers.
See generally, e.g., Am. Rice, 518 F.3d at 329 (citing
Oreck Corp. v. U.S. Floor Sys., Inc., 803 F.2d 166, 170
(5th Cir. 1986)); Xtreme Lashes, 576 F.3d at 227 (citing
Smack Apparel, 550 F.3d at 478). “ ‘The absence or
presence of any one factor ordinarily is not dispositive;
indeed, a finding of likelihood of confusion need not
be supported even by a majority of the . . . factors.’ ”
Am. Rice, 518 F.3d at 329 & n.19 (quoting Conan Properties, Inc. v. Conans Pizza, Inc., 752 F.2d 145, 150 (5th
Cir. 1985)). While likelihood of confusion typically presents a contested fact issue, “summary judgment may
be upheld if the . . . record compels the conclusion that
the movant is entitled to judgment as a matter of law.”
Smack Apparel, 550 F.3d at 474 (citing Beef/Eater
Rests., Inc. v. James Burrough, Ltd., 398 F.2d 637, 639
(5th Cir. 1968)). In its ruling, the district court found
that the first six digits pointed strongly towards a likelihood of confusion; that there was no evidence as to

App. 102
the seventh digit (actual confusion); and that the
eighth digit (care exercised by potential purchasers)
did not seem applicable. We agree with the district
court’s ruling as to the parties’ logos.
Strength of Mark. The district court found that
“Alliance has a very strong mark[.]” We agree. In assessing the strength of Alliance’s composite mark, we
look to two factors. First, we consider where the mark
falls on a spectrum of distinctiveness ranging from “generic, descriptive, [or] suggestive” to “arbitrary and
fanciful”—with the strength of the mark increasing as
“ ‘one moves away from generic and descriptive marks
toward arbitrary marks.’ ” Am. Rice, 518 F.3d at 330
(quoting Falcon Rice Mill, Inc. v. Cmty. Rice Mill, Inc.,
725 F.2d 336, 346 (5th Cir. 1984)); see also, e.g., Xtreme
Lashes, 576 F.3d at 227 (discussing spectrum) (citing
Two Pesos, Inc. v. Taco Cabana, Inc., 505 U.S. 763, 768
(1992)).12 Second, we consider “the standing of the
12

A generic term “refers to the class of which a good is a
member” and receives no trademark protection. Xtreme Lashes,
576 F.3d at 227 (citing Two Pesos, 505 U.S. at 768). A descriptive
term “provides an attribute or quality of a good,” and may be protected only if it has acquired secondary meaning. Id. A suggestive
term “suggests, but does not describe an attribute of the good; it
requires the consumer to exercise his imagination to apply the
trademark to the good.” Id. (citing Zatarains, Inc. v. Oak Grove
Smoke-house, Inc., 698 F.2d 786, 791 (5th Cir. 1983)). Arbitrary
or fanciful terms “bear no relationship to the products or services
to which they are applied.” Amazing Spaces, 608 F.3d at 241
(quoting Zatarains, 698 F.2d at 790-91). Suggestive, arbitrary,
and fanciful terms, “because their intrinsic nature serves to identify a particular source of a product, are deemed inherently distinctive and are entitled to protection.” Xtreme Lashes, 576 F.3d
at 227 (quoting Two Pesos, 505 U.S. at 763).

App. 103
mark in the marketplace.” Am. Rice, 518 F.3d at 330
(citing Sun Banks of Fla., Inc. v. Sun Fed. Sav. & Loan
Ass’n, 651 F.2d 311, 315 (5th Cir. 1981)).
Both factors support the strength of Alliance’s
composite mark. On the distinctiveness spectrum, the
dominant feature of the logo—the stylized bird—is
suggestive. See, e.g., Xtreme Lashes, 576 F.3d at 227
(explaining that “[i]t is proper to give more weight to
the distinctive portions of a mark and less weight to
unremarkable or generic portions”) (citing In re Dixie
Rests., Inc., 105 F.3d 1405, 1407 (Fed. Cir. 1997)). The
image of the bird—which Alliance considers to be an
eagle—is not “intrinsic” to the services of a goodgovernment organization promoting preferred candidates, which would be characteristic of a merely generic or descriptive feature. See, e.g., Am. Rice, 518 F.3d
at 330 (explaining that “the image of a girl icon being
used to sell rice is not intrinsic to rice as a product”).
Instead, the audience for Alliance’s endorsements
must “exercise some imagination” to associate the
logo’s bird symbolism with Alliance’s services. See, e.g.,
Xtreme Lashes, 576 F.3d at 227 (explaining that “a suggestive term . . . requires the consumer to exercise his
imagination to apply the trademark to the good”).
Moreover, as explained, Alliance’s composite mark enjoys an unrebutted presumption of distinctiveness13
13

We again note that Alliance’s word mark enjoys an unrebutted presumption that it had secondary meaning when registered. See 15 U.S.C. § 1052(f ); see also, e.g., Lovely Skin, 745 F.3d
at 882-83. Thus, to the extent that Alliance’s name is separately
relevant to the strength of Alliance’s composite mark, the name’s
presumed secondary meaning under section 1052(f ) also supports

App. 104
due to its PTO registration, see Nola Spice, 783 F.3d at
537, further enhancing the strength of the mark. See,
e.g., Amazing Spaces, 608 F.3d at 237 (explaining
that PTO registration constitutes prima facie evidence
“that the registrant has the exclusive right to use the
registered mark in commerce with respect to the specified goods or services”); 15 U.S.C. §§ 1057(b) & 1115(a);
see also, e.g., Am. Rice, 518 F.3d at 330 (relying on presumption of validity from PTO registration as a factor
in mark strength).14 Finally, as to the standing of Alliance’s mark in the marketplace, it is undisputed that
the strength of the mark. See, e.g., Viacom Int’l v. IJR Capital
Investments, LLC, 891 F.3d 178, 193 (5th Cir. 2018) (finding mark
at issue strong “because it has acquired distinctiveness through
secondary meaning”).
14
While Alliance does not argue the point, it appears from
the record that Alliance’s marks are eligible for incontestability
status. See 15 U.S.C. § 1065 (providing an owner’s right to use a
mark “shall be incontestable,” if the mark “has been in continuous
use for five consecutive years subsequent to the date of . . . registration”). Incontestability furnishes “conclusive evidence” of the
registrant’s exclusive right to use the mark, id. § 1115(b), but does
not relieve a plaintiff from his burden of proving infringement.
KP Permanent Make-Up, Inc. v. Lasting Impression I, Inc., 543
U.S. 111, 117 (2004). Incontestability does, however, preclude an
infringement action from being “defended on the grounds that the
mark is merely descriptive.” Park ‘N Fly, Inc. v. Dollar Park and
Fly, Inc., 469 U.S. 189, 205 (1985). It also shows strength of the
mark. See, e.g., Am. Rice, 518 F.3d at 330 (noting in the strengthof-mark analysis that mark at issue was “incontestable”). The
record reflects that Alliance’s two marks were registered in May
and June of 2013. We express no opinion on whether Alliance’s
marks satisfy the additional requirements of section 1065. See,
e.g., 15 U.S.C. § 1065(3) (requiring, inter alia, filing an affidavit
with the Director within one year of expiration of the five-year
period).

App. 105
Alliance has used its mark for some fifty years to promote candidates in yearly elections in a variety of Louisiana advertising media. See, e.g., Sun-Fun Prods. v.
Suntan Research & Devel. Inc., 656 F.2d 186, 190-91
(5th Cir. Unit B Sept. 1981) (considering duration of
use and promotion of the mark in assessing standing
of the mark in the marketplace). Coalition offers no argument on appeal to counter these indicia of strength.
We agree with the district court that the evidence
points to the strength of Alliance’s mark.
Mark Similiarity. The district court found that the
two composite marks “looked exactly alike,” strongly
supporting likelihood of confusion. We agree.
In assessing mark similarity, we “compar[e] the
marks’ appearance, sound, and meaning.” Elvis Presley
Enters. Inc. v. Capece, 141 F.3d 188, 201 (5th Cir. 1998).
“Similarity of appearance is determined on the basis of
the total effect of the designation, rather than on a
comparison of individual features,” but “courts should
give more attention to the dominant features of a mark.”
Xtreme Lashes, 576 F.3d at 228 (internal quotation
marks and citations omitted); see also, e.g., Sun-Fun
Prods., 656 F.2d at 189 (noting the “well-established
proposition that similarity of design stems from the
overall impression conveyed by the mark and not a dissection of individual features”) (citations omitted). The
inquiry focuses, not on whether two marks are identical in every respect, but on “whether, under the circumstances of the use, the marks are sufficiently similar
that prospective purchasers are likely to believe that
the two users are somehow associated.” Capece, 141

App. 106
F.3d at 201 (citing RESTATEMENT (THIRD) OF UNFAIR
COMPETITION § 21 cmt. c (1995)); see also, e.g., Xtreme
Lashes, 576 F.3d at 229 (“Confusion of origin, not the
identity of marks, is the gravamen of trademark infringement”) (citing KP Permanent Make-Up, Inc. v.
Lasting Impression I, Inc., 543 U.S. 111, 117 (2004)).
To cut to the chase: Alliance and Coalition have the
same logo. Same shape (rectangular). Same lines in the
same place (two parallel, horizontal lines over and under the bird). Same arrangement of words (one big
word above the top line; three smaller words below the
bottom line). Same colors (one, blue on a white background; the other, white on a blue background). And, of
course, the same birds. Not similar birds; the same
birds—with the same down-pointed beak, gazing
over the same wing (the right), sporting the same number of identically-stylized feathers (forty-three). As
Alliance’s brief succinctly puts it, “Coalition . . . uses
a virtual copy of Alliance’s trademarked logo[.]” It
is no answer that Coalition’s name is slightly different from Alliance’s (“COALITION” instead of “ALLIANCE”; “BETTER” government instead of “good”
government), or that the two logos use obverse color
schemes. Rather than focusing on “a comparison of individual features,” the district court correctly focused
on the “total effect” of the logos and on their “dominant
features.” Xtreme Lashes, 576 F.3d at 228. The district
court could not have said it better: “It looks like if [you]
place one over the other[,] it would be virtually identical. Maybe exactly identical.”

App. 107
We must focus, of course, not merely on whether
the marks are identical, but on whether the virtuallyidentical marks are used in a manner that prospective
“purchasers” of the two organizations’ services (i.e.,
voters who rely on Alliance and Coalition endorsements) are “likely to believe that the two users are
somehow associated.” Capece, 141 F.3d at 201. Here we
also find the evidence uncontested and overwhelming.
It is undisputed that Alliance and Coalition work in
the same field (elections), operate in the same market
(New Orleans), use the same advertising channels
(newspapers, sample ballots, flyers), and sometimes
endorse the same or opposing candidates. Consequently, there is no question that the overall similarity
of the marks, in the context of their use, creates a likelihood in the minds of voters that the two organizations are “somehow associated.” Capece, 141 F.3d at
201.
Finally, we observe that Coalition attempted to
distinguish the two logos—not by appearance, design,
color, or font—but by the birds’ species:
DISTRICT COURT: They look exactly alike
to me, the two birds.
COUNSEL: [ . . . ] [N]o, they really aren’t,
your Honor, if you look at the wing span. The
wing span of the eagle is different from the
hawk. It’s much larger and it fans out, and
that’s just the way the hawk looks.
COURT: I’ll tell you, unless my eyes are deceiving me, . . . those two look exactly alike.
They even look like the same feathers, same

App. 108
number of feathers, same arrangement, head
is facing the same way, the same beak. I don’t
know if you call them—I don’t know technically what kind of bird it is, but whatever they
are, they look exactly alike to me.
COUNSEL: Well, they’re both birds of prey;
one is an eagle and one is a hawk.
COURT:

Okay.

COUNSEL: And when we filed with the
Secretary of State to get our font, we said it
was a hawk. We were represented by a hawk,
not an eagle.
We agree with the district court: the birds are identical. Whether that bird is a haliaeetus leucocephalus
(bald eagle), a buteo jamaicensis (red-tailed hawk), or
some other bird, we need not determine.
Product or service similarity. “ ‘The greater the
similarity between the products and services, the
greater the likelihood of confusion.’ ” Xtreme Lashes,
576 F.3d at 229 (quoting Exxon Corp. v. Tex. Motor
Exch. of Houston, Inc., 628 F.2d 500, 505 (5th Cir.
1980)). The district court found the services provided
by the two organizations—endorsement of candidates—are “exactly the same.” On appeal Coalition
offers no response. The district court was correct.
Outlet and purchaser identity. The district court
found that the outlet and purchaser identity for the
two organizations was the same, and again Coalition
offers no argument to the contrary. We agree with the
district court. The undisputed evidence shows that

App. 109
Alliance and Coalition both target New Orleans voters,
often through the same local channels. The greater the
overlap between the outlets for, and consumers of, the
services, the greater the potential for confusion. See,
e.g., Exxon, 628 F.2d at 505 (finding similarity of products where both plaintiff and defendant were involved
in “car care”); cf. Amstar Corp. v. Domino’s Pizza, Inc.,
615 F.2d 252, 262 (5th Cir. 1980) (explaining that
“[d]issimilarities between the retail outlets for and the
predominant consumers of plaintiff ’s and [defendant’s]
goods lessen the possibility of confusion, mistake, or
deception”).
Advertising media identity. The district court
found that the two organizations advertised on behalf
of candidates “in the same or similar media.” Coalition
again fails to dispute this finding. We agree with the
district court. The undisputed evidence shows both organizations advertised in New Orleans newspapers
using the same means, such as sample ballots in the
newspaper and flyers distributed by mail or by hand.
“[A]dvertising in similar media [i]s an indication that
consumers might be confused as to the source of similar products.” Am. Rice, 518 F.3d at 332 (brackets
added); see also, e.g., Xtreme Lashes, 576 F.3d at 229
(inferring similar advertising and marketing channels
where both parties targeted the same class of buyers
using “print advertisements, direct mailings, and Internet promotion”).
Defendant’s intent to infringe. “ ‘[I]f the [challenged] mark was adopted with the intent of deriving
benefit from the reputation of (the plaintiff,) that fact

App. 110
alone may be sufficient to justify the inference that
there is confusing similarity.’ ” Chevron Chem. Co. v.
Voluntary Purchasing Grps., Inc., 659 F.2d 695, 703-04
(5th Cir. Unit A Oct. 1981) (quoting Amstar Corp., 615
F.2d at 263) (brackets added). The district court found
that, while there was no evidence of “actual intent to
infringe,” Coalition’s logo “was certainly intended to
mimic, and largely mimic[s] . . . Alliance’s logo.” In response, Coalition argues this issue should not have
been resolved on summary judgment because Alliance
did not introduce evidence of intent to infringe.
The district court correctly inferred from the striking similarity between the marks that Coalition’s later
mark was adopted “with the intent of deriving benefit
from [Alliance].” Chevron, 659 F.2d at 704. “ ‘[A]s soon
as we see that a second comer in a market has, for no
reason that he can assign, plagiarized the ‘make-up’ of
an earlier comer, we need no more[.]’ ” Id. (quoting
American Chicle Co. v. Topps Chewing Gum, Inc., 208
F.2d 560, 563 (2nd Cir. 1953)). Coalition’s own evidence
bolsters this conclusion. At oral argument, Coalition
drew our attention to a 1992 version of its logo featuring a slightly different stylized bird. But the mark
challenged here is Coalition’s 2008 mark, which features a newer iteration of the bird exactly like Alliance’s.
“[W]e can think of no other plausible explanation for
such behavior” than Coalition’s intent to benefit from
Alliance’s pre-existing reputation. Chevron, 659 F.2d at
704.
Actual confusion. Alliance admitted, and the district court acknowledged, that there was no evidence of

App. 111
actual confusion. On appeal Coalition relies heavily on
this point, to no avail. “Although actual confusion is
the ‘best evidence’ of confusion, it ‘is not necessary to a
finding of likelihood of confusion.’ ” Am. Rice, 518 F.3d
at 333 (quoting Amstar, 615 F.2d at 263); see also, e.g.,
Exxon, 628 F.2d at 506 (explaining that “evidence of
actual confusion . . . is not essential to a finding of likelihood of confusion”) (citation omitted).
Care exercised by potential purchasers. The district
court did not analyze this factor and Coalition does not
address it on appeal. See, e.g., Smack Apparel, 550 F.3d
at 483 (explaining that, “[w]here items are relatively
inexpensive, a buyer may take less care in selecting the
item, thereby increasing the risk of confusion”). We
need not consider this factor, since no one factor is dispositive, Am. Rice, 518 F.3d at 329, and since the balance of the factors point overwhelmingly in Alliance’s
favor.
***
In sum, we agree with the district court that Alliance established likelihood of confusion as a matter of
law. See, e.g., Viacom, 891 F.3d at 192 (affirming summary judgment on likelihood of confusion even though
“every digit” of confusion did not weigh in movant’s favor) (emphasis in original). We therefore affirm the
district court’s injunction as to Alliance’s composite
mark.

App. 112
C.
We modify the district court’s injunction in one
respect. The injunction restrains Coalition from using
“the Coalition Marks,” which are defined to encompass
not only Coalition’s logo, but also its “designation ‘Coalition for Better Government.’ ” To the extent the injunction restrains Coalition from using the name
“Coalition for Better Government” in connection with
endorsing candidates or its other activities, we find the
injunction overbroad. Based on our own review of the
record, we conclude that Coalition’s use of its trade
name (as distinct from its logo) does not create a likelihood of confusion with Alliance’s differently-worded
trade name.15 In other words, Coalition may continue
to use its name—provided it disassociates the name
from its current logo or develops a different logo that
does not create confusion with Alliance’s composite
mark. We therefore modify the injunction only to the
15

See, e.g., Holiday Inns, Inc. v. Holiday Out in Am., 481 F.2d
445 (5th Cir. 1973) (affirming conclusion that “Holiday Inn” and
“Holiday Out” were not confusingly similar); see also, e.g., W.L.
Gore & Assoc., Inc. v. Johnson & Johnson, 882 F. Supp. 1454 (D.
Del. 1995) (concluding “ ‘Easy Slide’ is dissimilar from ‘Glide’ in
appearance and sound, tipping the balance against a finding of
likelihood of confusion”), aff ’d, 77 F.3d 465 (3rd Cir. 1996); CocaCola Co. v. Essential Prods. Co., 421 F.2d 1374, 1376 (C.C.P.A.
1970) (holding Coca-Cola and Coco Loco not confusingly similar
because, inter alia, “the articulate utterance of one mark is far
from identical with that of the other mark”); see also generally 4
McCarthy § 23:30 (collecting cases holding word marks not confusingly similar). We reach this conclusion based solely on the
record before us and offer no view regarding Alliance’s pending
opposition to Coalition’s PTO application, which was stayed pending this lawsuit.

App. 113
extent that it restrains the use of Coalition’s name. We
leave the injunction intact in all other respects. See,
e.g., Wynn Oil Co. v. Purolator Chem. Corp., 536 F.2d
84, 86 (5th Cir. 1976) (modifying injunction on appeal
by deleting one subsection).
IV.
For the foregoing reasons, we AFFIRM the district
court’s summary judgment ruling, but MODIFY the
injunction to restrain only the use of Coalition’s logo.
AFFIRMED AS MODIFIED

App. 114
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
ALLIANCE FOR GOOD
GOVERNMENT

CIVIL ACTION
No. 17-3679

VERSUS
COALITION FOR BETTER
GOVERNMENT

SECTION: “J”(2)

AMENDED ORDER AND REASONS*
(Filed Jun. 26, 2018)
Before the Court is Alliance for Good Government’s (“Alliance”) Motion for Attorney’s Fees (Rec.
Doc. 61) and Coalition for Better Government’s (“Coalition”) related Motion to Strike (Rec. Doc. 64). Both
sides were allowed opportunity to file opposition and
reply memoranda regarding each of these motions and
did so. Having considered the motions, memoranda,
and the applicable law, the Court finds that Alliance’s
motion should be GRANTED and Coalition’s motion
should be DENIED.
FACTS AND PROCEDURAL HISTORY
This case arises from a trademark dispute between two nonprofit political companies, Alliance and
Coalition. Both entities used their marks (“Alliance
* This Amended Order only corrects a typographical error in
this Court’s Order and Reasons granting attorney’s fees (Rec. Doc.
82). At one point in its Order the Court itself mistakenly confused
Parties’ names.

App. 115
Marks” and “Coalition Marks,” respectively) or allowed
their marks to be used as an indication of endorsement
of a particular political candidate. As Coalition’s counsel admitted during oral argument, Alliance is the senior trademark holder to its mark.
In 2016, Coalition used the Coalition Marks to endorse several political candidates. Alliance filed a complaint alleging among other claims, that Coalition had
infringed its trademark under the Lanham Act, 15
U.S.C. § 1114. Coalition responded with its own counterclaim, motion to dismiss, and motion for summary
judgment. On October 11, 2017, the Court heard oral
argument on the parties’ cross-motions for summary
judgment.
At the hearing the Court ruled from the bench that
Plaintiff was entitled to summary judgment for trademark infringement under 15 U.S.C. § 1114. The Court
found that despite Coalition’s assertions that one mark
featured a “hawk” and the other an “eagle,” the birds
that formed the centerpiece of each mark were virtually identical, if not exactly. The Court further found
that the only discernable difference in the marks was
that “Coalition” was substituted for “Alliance” and that
“better” was substituted for “good,” each being a synonym for the word it replaced. The Court subsequently
entered its written judgment granting an injunction
against Coalition’s use of the Coalition Marks or any
other similar marks likely to give rise to confusion and
dismissed all other claims.

App. 116
Following final judgment, Plaintiff motioned for
attorney’s fees. Defendant in turn motioned to strike
language from Plaintiff ’s motion and in opposition,
requested the Court bifurcate the determination of
whether to grant fees from the calculation of amount
of fees and requested a hearing to determine the
amount in fees through oral testimony.
PARTIES’ ARGUMENTS
Plaintiff requests sixty-eight thousand two hundred
thirty-seven dollars and twenty-five cents ($68,237.25)
in attorney’s fees pursuant to section 1117(a) of the
Lanham Act. Plaintiff argues that this case meets the
bar for “exceptional” in the plain-meaning sense: this
case stands out from others. Plaintiff further argues it
wins on two independent grounds: the (1) strength of
its litigating position against defendant and (2) the unsuccessful party’s unreasonable litigation of the case.
In support of its argument, Plaintiff claims that
Coalition unnecessarily expanded the litigation by
(1) filing baseless motions to dismiss and (2) counterclaims, (3) motioning for summary judgment without
record evidence, (4) issuing redundant subpoenas, and
(5) unreasonably refusing to postpone depositions. Alliance further maintains that it had an exceptionally
strong case and that Defendant did all of the above
not with a reasonable expectation of succeeding on
the merits, but instead with the hope of bankrupting
Plaintiff with a deluge of court and attorney’s fees.

App. 117
In support of its accusation, Alliance notes that as
a nonprofit its funding was a matter of public record
and prior to litigation, its available funds were listed
at only $31,275. Coalition’s lead counsel (also its president and director) on the other hand, “earns millions
of dollars as a highly successful plaintiff ’s attorney as
well as from significant real estate holdings.” Alliance
attached the state court decision that was the basis for
this statement regarding Coalition’s lead counsel’s income to its Motion.
Coalition takes exception to all of Alliance’s accusations, but particularly the quoted language above.
Coalition claims that this egregious conduct-Alliance’s
paraphrasing of the public state court decision will
harm Coalition’s lead counsel’s reputation by being a
part of this matter’s public record.
LEGAL STANDARD
Attorney’s fees are not normally granted to the
winner in the American system, but the Lanham Act
specifically provides, “The court in exceptional cases
may award reasonable attorney fees to the prevailing
party.” 15 U.S.C. § 1117(a). “Exceptional” is to be given
its plain-meaning: “ ‘out of the ordinary course,’ unusual,’ or ‘special.’ ” Octane Fitness, LLC v. ICON Health
& Fitness, Inc., 134 S. Ct. 1749, 1756-57 (2014) (quoting 3 Oxford English Dictionary 374 (1933)). It does
not mean “bad faith,” because the “long-established
American common-law rule already provides an award
in such an instance” and it would therefore render

App. 118
Congress’s decision to include a fee-switching provision in the Lanham Act superfluous. Baker v. DeShong,
821 F.3d 620, 624 (5th Cir. 2016).
Rather, our Circuit has adopted a disjunctive
standard: “an exceptional case is one where (1) in considering both governing law and the facts of the case,
the case stands out from others with respect to the substantive strength of a party’s litigation position; or
(2) the unsuccessful party has litigated the case in an
unreasonable manner.” Id. (citing Octane Fitness, 134
S. Ct. at 1756). The Court looks to the totality of the
circumstances to determine the appropriateness of feeswitching. Octane Fitness, 134 S. Ct. at 1756.1
DISCUSSION
I.
The Court is persuaded that Plaintiff is entitled to
attorney’s fees under both grounds. First, this case
stands out due to the strength of Alliance’s litigation
position. Alliance adopted the senior mark least 15
years prior to Coalition. The centerpiece of both the Alliance Mark and the Coalition Mark is a bird of prey. It
makes no difference whether the bird is characterized
as a “hawk” or an “eagle,” what is important is that the
centerpiece of the two marks appears identical to the
naked eye. Although the names of the entities on the
1

Furthermore, this Court is free to consider a number of
nonexclusive factors in determining whether to provide fees, “including frivolousness, motivation, [and] objective unreasonableness.” Baker, 821 F.3d at 624.

App. 119
respective marks are technically different, they are
substantially the same so that the substitution of “Coalition” in the place of “Alliance” and “better” in the
place of “good” does little to distinguish the junior
mark from the senior. Furthermore, (1) the Alliance
mark is very strong, (2) the “product” of Alliance and
Coalition is the same, (3) as are the parties’ advertising
channels, (4) as well as their “customers.” The likelihood of confusion is so great that it would appear that
customer confusion was Coalition’s motivation for
adopting the Coalition Mark.
It is true that Coalition asserted a laches defense,
but Coalition could not muster any credible evidence
to support this affirmative defense at the summary
judgment hearing. Cf. Bailero v. 727 Inc., CV 16-16098,
2018 WL 733215, at *2 (F.D. La. Feb. 6, 2018) (“The
substantive weakness of Plaintiff ’s case was not remarkable; Plaintiff was able to develop some facts to
support his argument that he did not abandon the . . .
trademark.”). Thus, the Court finds this to be an exceptional case of infringement to which there was no credible defense.
Second, Coalition has litigated this case in an unreasonable manner. The Court finds merit in Alliance’s
assertion that is was forced to devote its resources
fighting baseless motions and counterclaims. Coalition’s argument for summary judgment by virtue of a
laches defense-unsupported by any evidence other
than a bare bones affidavit-is but one example of Coalition’s unreasonable trial tactics. Coalition also filed
a counterclaim without any actionable conduct (Rec.

App. 120
Doc. 23). And it also filed a meritless motion to dismiss
(Rec. Doc. 20) two weeks before filing its summary
judgment motion, rendering the former moot. The
Court also finds Coalition’s behavior in discovery unreasonable; for example, Coalition’s refusal to postpone
depositions following this Court’s summary judgment
finding for Alliance, thereby necessitating a protective
order (Rec. Doc. 48).
Examining the totality of the circumstances this
case qualifies as “exceptional.” The obvious confusion
that would result between the marks combined with
Coalition’s counsel’s aggressive motion practice, and
Coalition’s president/director/counsel’s non-credible
attempts to distinguish the marks at the summary
judgment hearing, bring Coalition’s motivations into
serious question. See Vital Pharm., Inc. v. Am. Body
Bldg. Products, LLC, 510 F. Supp. 2d 1043, 1049 (S.D.
Fla. 2007) (finding that Plaintiff ’s CEO’s evasive, nonconvincing testimony confirmed the court’s belief
that litigation was initiated in bad faith). The Court
however, reserves determination as to whether Coalition has litigated in bad faith, as such a finding is
clearly unnecessary under the Octane Fitness standard. Baker, 821 F.3d at 622.
II.
The Court must now determine the appropriate
amount in fees. As a preliminary matter, the Court
finds that it would be an unnecessary and wasteful act
to grant Coalition’s request to bifurcate determination

App. 121
of whether to grant fees and the calculation of the
amount in fees. The Court likewise finds it is unnecessary to take the unusual action of deriving fee amounts
through oral testimony. The Court notes that since it
finds fee-switching is warranted, any additional expense to determine fee amounts through hearings
would be borne at Coalition’s expense.
In calculating the appropriate fee, “the ‘lodestar’
calculation is the most useful starting point.” Who Dat
Yat Chat, LLC v. Who Dat, Inc., 838 F. Supp. 2d 516,
518 (E.D. La. 2012) (quotation omitted). That is, “the
number of hours reasonably expended on the litigation
multiplied by a reasonable hourly rate.” La. Power &
Light Co. v. Kellstrom, 50 F.3d 319, 324 (5th Cir. 1995).
The lodestar determination is presumed reasonable,
but may be adjusted upward or downward depending
on the weight the Court allots to the various factors
elucidated in Johnson v. Georgia Hwy. Exp., Inc., 488
F.2d 714, 717 (5th Cir. 1974). Alliance, as the party requesting fees, bears the burden in establishing the
reasonableness of the fees it requests by submitting
adequate documentation–namely time records and affidavits. Who Dat Yat Chat, LLC, 838 F. Supp. 2d at
518.
Alliance requests $68,237.25 in attorney’s fees.
This fee amount is derived from the fees Alliance had
already incurred at the time of filing its motion with
the addition of $4,800 in anticipated fees that Alliance
expected would be incurred in replying to Coalition’s
expected opposition. Alliance in fact subsequently filed
a motion in opposition (Rec. Doc. 69) to Coalition’s

App. 122
Motion to Strike as well as a reply memorandum (Rec.
Doc. 78) to Coalition’s opposition to Alliance’s motion
for attorney’s fees.
According to Alliance’s supporting affidavit (Rec.
Doc. 612), Mr. Sahuc, an attorney with 15-years-experience in complex litigation, charged a rate of $225.00
per hour, an 18% discount from his typical fee. Mr. Latham, an attorney with 20-years-experience in trademark litigation, billed Alliance at $285.00 per hour,
a 26% deduction from his undiscounted rate. Ms.
Wiebelt’s paralegal services were billed at $95.00 per
hour. The Court is convinced that comparison of these
rates with those allowed by this Court in other trademark matters are sufficient evidence to establish the
reasonableness of the rates incurred. See id. at 520
(finding that $325 per hour for an attorney with 28
years’ experience, $250 for an attorney with 16 years’
experience, $200 per hour for attorneys with 10 and 9
years’ experience respectively, and $175 per hour for
attorneys with 4 and 3 years’ experience respectively
were reasonable); see also Bd. of Supervisors of La.
State Univ. v. Smack Apparel Co., 2009 U.S. Dist.
LEXIS 27652 (E.D. La. April 2, 2009) (finding that
$325 was a reasonable hourly rate for an attorney with
10 years’ experience in trademark litigation and for an
attorney with 20 years of unspecialized legal experience).
Furthermore, a review of the time sheets (Rec.
Doc. 61-3) submitted with Alliance’s motion reveal the
proper exercise of “billing judgment.” The timesheets
demonstrate that the vast majority of the work was

App. 123
performed by a single attorney, Mr. Sahuc. This is not
a case where “Parties do not address why six attorneys
were assigned to this one motion to compel.” Who Dat
Yat Chat, LLC, 838 F. Supp. 2d at 521 (emphasis original).
Furthermore, the Court finds that $4,800 estimate
to be a reasonable addition to the fees that were already incurred by Alliance, especially because that estimate does not appear to anticipate Coalition’s Motion
to Strike, and the reply memorandum that Alliance
drafted and filed in response. In any case, the Court
finds that the amount of $68,237.25 is appropriate,
given consideration of the Johnson factors.
CONCLUSION
Accordingly,
IT IS ORDERED that Alliance’s Motion for Attorney’s Fees (Rec. Doc. 61) is hereby GRANTED and
Alliance is awarded $68,237.25 in attorney’s fees.
IT IS FURTHER ORDERED that Coalition’s
Motion to Strike (Rec. Doc. 64) is hereby DENIED.
New Orleans, Louisiana this 26th day of June,
2018.
/s/ Carl L. Barbier
CARL J. BARBIER
UNITED STATES
DISTRICT JUDGE

App. 124
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
ALLIANCE FOR
GOOD GOVERNMENT
Plaintiff
v.
COALITION FOR
BETTER GOVERNMENT
Defendant

CASE NO.: 17-3679
JUDGE
CARL. J. BARBIER
MAGISTRATE
JUDGE WILKINSON
SECTION: “J”(2)

FINAL JUDGMENT AND
PERMANENT INJUNCTION
(Filed Oct. 23, 2017)
Before the Court is Plaintiff Alliance For Good
Government’s (“Alliance”) Motion for Dismissal of Remaining Claims and for Entry of Final Judgment Including a Permanent Injunction (the “Motion”).
Plaintiff Alliance commenced this action for an injunction and other relief against Defendant Coalition For
Better Government (“Coalition”), pursuant to the Lanham Act, 15 U.S.C. § 1051, et seq., as amended by
the Trademark Counterfeiting Act of 1984, Public Law
98-473, and under the laws of the State of Louisiana,
alleging that Coalition’s use of the designation “Coalition For Better Government,” which is subject to United

App. 125
States Trademark Application Serial No. 87375772, and
the logo seen at right, which
is subject to United States
Trademark Application Serial No. 87375806, (collectively,
the “Coalition Marks”) in connection with association
services, namely, promoting the active engagement of
citizens in the selection, election and promotion of public officials, has infringed Alliance’s United States
Trademark Registrations, including the word mark
ALLIANCE FOR GOOD GOVERNMENT (U.S. Reg.
No. 4,330,957) and the composite mark ALLIANCE
FOR GOOD GOVERNMENT SINCE 1967 (U.S. Reg.
No. 4,349,156) (collectively, the “ALLIANCE MARKS”).
On October 11, 2017, the Court held oral argument on the parties’ cross-motions for summary judgment and issued its rulings from the bench. The Court
denied Coalition’s motion for summary judgment and
granted summary judgment in favor of Alliance with
respect to liability on Alliance’s trademark infringement claim under 15 U.S.C. § 1114, Count I of Alliance’s Complaint. (Rec. Doc. 43.) In its Motion, Alliance
asserts that it will not be pursuing its remaining
claims or any monetary damages against Coalition and
that it wishes to dismiss its remaining claims without
prejudice.

App. 126
Accordingly,
IT IS HEREBY ORDERED, ADJUDGED AND
DECREED:
1. The Court has subject matter jurisdiction over
this matter and personal jurisdiction over the parties.
2. The Court shall retain jurisdiction over this
matter for purposes of interpretation and enforcement
of the provisions of this Judgment.
3. Counts II, III, IV, V, and VI of Alliance’s Complaint [Rec. Doc. 1] are hereby DISMISSED WITHOUT
PREJUDICE.
4. Defendant Coalition, its officers, agents, servants, employees, and attorneys, and other persons who
are in active concert or participation with any of them,
are permanently ENJOINED AND RESTRAINED
from (i) using the Coalition Marks, or any other mark
that is confusingly similar, in connection with endorsing candidates for public office and promoting the active engagement of citizens in the selection, election
and promotion of public officials, (ii) advertising or
marketing the Coalition Marks or any other mark that
is confusingly similar, in signage, sample election ballots, letterhead, business cards, marketing materials,
websites, domain names, or social media, (iii) publicly
representing, or otherwise stating or implying, that
Coalition or its services are in any way affiliated with
or endorsed by Alliance, and (iv) assisting, aiding, or
abetting any other person or entity in engaging in or

App. 127
performing any activities referred to in (i), (ii) or (iii)
above.
New Orleans, Louisiana, this 23rd day of October,
2017.
/s/ Carl L. Barbier
CARL J. BARBIER
UNITED STATES
DISTRICT JUDGE

App. 128
MINUTE ENTRY
BARBIER, J.
OCTOBER 11, 2017
JS-10: 1 hr. 10 min.
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
ALLIANCE FOR GOOD
GOVERNMENT

CIVIL ACTION
NUMBER: 17-3679

VERSUS
COALITION FOR BETTER
GOVERNMENT

SECTION: “J”(2)

COURTROOM DEPUTY:
Gail Chauvin

COURT REPORTER:
Karen Ibos

WEDNESDAY, OCTOBER 11, 2017 AT 9:30 A.M.
JUDGE CARL J. BARBIER PRESIDING
MOTION HEARING
(Filed Oct. 11, 2017)
Case called at 9:44 a.m.
MOTION for Summary Judgment by Coalition for Better Government. [26]; and MOTION for Partial Summary Judgment by Alliance for Good Government.
[28].
Argued; ORDERED that Coalition for Better Government’s motion for summary judgment is DENIED and
Alliance for Good Government’s motion for partial
summary judgment is GRANTED as stated on the record.

App. 129
FURTHER ORDERED that Alliance for Good Government is to submit to the Court a proposed judgment
within seven (7) days.
FURTHER ORDERED that MOTION to Dismiss for
Failure to State a Claim by Coalition for Better Government, [20] is DENIED AS MOOT.
FURTHER ORDERED that MOTION to Dismiss Coalition’s Counterclaims for Failure to State a Claim by
Alliance for Good Government, [34] is GRANTED.
Hearing ended at 10:50 a.m.
ATTORNEYS: Richard Sahuc, for plaintiff
Darleen Jacobs, Hunter Harris, IV,
for defendant

